About The National Science Foundation...                                                           About the Cover...

                                                                                                   Original artwork, acrylic on canvas, entitled “The Grizzly Bear” painted by OIG investigative
The National Science Foundation (NSF) is charged with supporting and strengthening all
                                                                                                   scientist, Scott Moore.
research discplines, and providing leadership across the broad and expanding frontiers of
science and engineering knowledge. It is governed by the National Science Board which sets
agency policies and provides oversight of its activities.


NSF invests approximately $7 billion per year in a portfolio of more than 35,000 research and
education projects in science and engineering, and is responsible for the establishment of
an information base for science and engineering appropriate for development of national and
international policy. Over time other responsibilities have been added including fostering and
supporting the development and use of computers and other scientific methods and
technologies; providing Antarctic research, facilities and logistic support; and addressing
issues of equal opportunity in science and engineering.


And The Office of the Inspector General...


NSF’s Office of the Inspector General promotes economy, efficiency, and effectiveness in
administering the Foundation’s programs; detects and prevents fraud, waste, and abuse within
the NSF or by individuals that recieve NSF funding; and identifies and helps to resolve cases of
misconduct in science. The OIG was established in 1989, in compliance with the Inspector
General Act of 1978, as amended. Because the Inspector General reports directly to the
National Science Board and Congress, the Office is organizationally independent from the
agency.
                                                                                Table of Contents
Investigations .............................................................................................7

Civil and Criminal Investigations....................................................................................................7

Research Misconduct Investigations ........................................................................................... 11

Administrative Investigations .......................................................................................................16

Management Implication Reports................................................................................................17


Audits and Reviews..................................................................................23

Audits of NSF Operations............................................................................................................23

Audits of NSF Awardees ............................................................................................................25

Audit Resolution ..........................................................................................................................27

A-133 Audits ................................................................................................................................29


OIG Management Activities..................................................................... 31

Outreach......................................................................................................................................31


Statistical Data..........................................................................................33


Appendix ...................................................................................................43


FY 2012 Top Management Challenges....................................................45

[Blank Page]
                From the Inspector General


This Semiannual Report to Congress highlights the activities of the National
Science Foundation, Office of Inspector General for the six months ending
September 30, 2011. During this period, our investigative staff closed 50
investigations, had 5 research misconduct cases result in findings by NSF, and
recovered $12,903,449 for the government. In addition, eleven audit reports
and reviews were issued which identified $201,756 in questioned costs and
nearly $76 million in funds put to better use.

During the past six months, we completed several cases with significant
monetary recoveries for the government. An investigation of overcharges by
the contractor that provides support for the U.S. Antarctic Program led to the
recovery of $11.4 million. A joint investigation of false claims made under NSF
grants led to a settlement agreement requiring a Georgia college to reimburse
the government $1.2 million and enter into a five-year compliance plan. Ex­
penses charged to the NSF grant included personal purchases and travel. Four
ongoing investigations of fraud and duplicate funding involving NSF awards
resulted in $875,000 being either recovered from awardees or retained by the
government.

An audit completed during the last six months made recommendations to NSF
regarding oversight of financial conflicts of interest at institutions receiving NSF
awards. An audit of grants management processes at an Alaska university
found that more than $533,000 of grant funds were expended inappropriately
on food and entertainment, among other things. Auditors also indentified $76
million in unallowable contingency costs in the bid to build the National Ecologi­
cal Observatory Network.

Taxpayers expect government managers to be prudent custodians of agency
funds in both good times and bad, but expectations are even higher when
budgets are tight. In tough economic times Federal agencies and programs
must make every dollar count; exercise the most stringent oversight; and ensure
these standards apply whether the money is being spent by NSF awardees or
internally within the Foundation.

Recently the OIG has performed reviews to examine expenditures at NSF and
identify possible cost savings, as well as changes that could lead to efficien­
cies and could reduce fraud, waste, and abuse. We previously assessed the
amount NSF spends to provide light refreshments to peer review panelists.
During this reporting period, we assessed NSF’s purchases of wireless devices
and services, which in FY 2010 amounted to $660,000. Like the earlier review,
the report cited the need for a centralized procurement process which could
result in economies of scale when purchasing, and concluded that the agency
should establish a policy to guide the purchase, distribution and use of wireless
technology. NSF has been responsive to our recommendations.
There are many opportunities to conserve money within a $7 billion dollar organization like NSF
without having an adverse impact on the agency’s core mission. My office will continue to focus
on identifying opportunities for cost savings or funds that can be put to better use.

I look forward to a continued partnership with the Congress and with NSF in advancing our
shared mission of safeguarding federal tax dollars awarded by the Foundation and in protecting
the integrity of NSF’s programs and operations.
                                                     Report Highlights
•   Our investigation of overcharges by the contractor that provides
    support for the U.S. Antarctic Program, which began pursuant
    to a referral from the Office of Audit, led to the recovery of $11.4
    million in wrongful contract charges.

•   An investigation involving a PI at a Georgia college who
    submitted false claims to NSF and NASA grants over a five year
    period led to a settlement agreement requiring the college to
    reimburse the federal government $1.2 million. The college also
    agreed to a five-year compliance plan and did not renew the
    PI’s employment contract.

•   More than $875,000 was recovered from four ongoing cases.
    In one case, an employee at a Delaware university charged
    fraudulent and unallowable costs to an NSF award and, during
    our investigation, altered records to transfer improper costs off
    the awards. In another case, involving duplicate funding related
    to NSF and Department of Energy awards, NSF terminated an
    award in response to our recommendation, providing NSF with
    more than $261,000 in funds put to better use.

•   An audit of NSF’s oversight of grantee institutions’ financial
    conflicts of interest programs found that NSF policy does
    not require it to provide monitoring and oversight of grantee
    institutions’ implementation of their conflicts programs. In
    addition, institutions are not required to notify NSF when they
    permit research to continue without imposing restrictions on
    an identified conflict. As a result, NSF cannot be assured that
    the institutions are properly managing, reducing, or eliminating
    conflicts of interest or that unmanageable conflicts are being
    reported to NSF.

•   Auditors found that the $433.7 million cost proposal for
    construction of the National Ecological Observatory Network
    included approximately $76 million in unallowable contingency
    costs. Problems with contingencies in this award are similar
    to those reported previously. Since September 2010, a total of
    $226 million in unallowable contingencies in cost proposals for
    three large construction projects has been identified.




                                                                           5

Report Highlights




               6

                                                         Investigations
CIVIL AND CRIMINAL INVESTIGATIONS
We investigate violations of federal civil and criminal statutes by ap­
plicants for and recipients of NSF funds, as well as NSF employees
and contractors. When we find substantial evidence of wrongdoing,
we refer cases to the Department of Justice for prosecution and
recommend administrative action by NSF in appropriate circum­
stances.

Our investigations yielded significant results during this reporting
period, including resolution of a case against a major university with
a $1.2 million settlement and five-year compliance plan; recovery
of more than $875,000 in four ongoing cases; and arrests in two
cases.

Recovery of $11.4 Million of Wrongful Contract Charges

We investigated overcharges by the contractor that provides sup­
port for the U.S. Antarctic Program. The overcharges, which were
identified by an audit and referred to the Office of Investigations,
occurred because the contractor reclassified allocations of indirect
costs from its corporate parent headquarters as direct costs in the
contract, in a manner inconsistent with its Disclosure Statement.
This resulted in non-compliance with applicable Cost Accounting
Standards. Following our investigation, we referred the matter to
the U.S. Attorney’s Office for consideration of civil action under the
False Claims Act. After further investigation and coordination with
the Department of Justice, the U.S. Attorney declined to initiate civil
litigation and returned the matter to OIG to work with NSF manage­
ment to develop a resolution.

Subsequently, NSF management entered into discussions with
the contractor over the cost impact of the noncompliance. NSF
and the contractor agreed that the total amount that the contractor
mischarged was $10.8 million in direct costs, as confirmed by the
audit. Of this amount, NSF recovered $6.9 million by reduction of
the contractually authorized Annual Program Plan ceilings. The                HIGHLIGHTS
remaining $3.9 million will be excluded from the final invoice. The           Civil and Criminal
indirect costs and award fees associated with these amounts                     Investigations ..................7
constitute an additional $600,000 of recovered funds.                         Research Misconduct
                                                                                Investigations ..................11
                                                                              Administrative
                                                                                Investigations ..................16
                                                                              Management Implication
                                                                                Reports ...........................17
                                                                              Follow-Up from Previous
                                                                                MIRs ...............................20

                                                                          7
Investigations


                  College Misuses NSF and NASA Funds, Repays $1.2 Million

                  Our joint investigation with NASA OIG involving a PI at a Georgia college who
                  submitted false claims to NSF and NASA grants over a five year period led to a
                  settlement agreement requiring the college to reimburse the federal government
                  $1.2 million. The college also agreed to a five-year compliance plan and did not
                  renew the PI’s employment contract.

                  Our investigation revealed that the PI charged personal travel costs to an NSF
                  grant and two NASA grants, used grant funds for personal purchases, and
                  charged expenses for an art exhibit such as advertising and printing. The PI
                  also charged the federal grants for activities related to his personal interest in
                  art such as trips to attend art exhibits, festivals, and meetings with art experts
                  all over the world.

                  Company Owner Indicted for Fraudulently Obtaining Award Money
                  from the STTR Program

                  The owner of a South Dakota company was indicted by a federal grand
                  jury for 11 counts of submitting false claims, making false statements to the
                  government, wire fraud, and receiving stolen government money in relation to
                  a $150,000 Small Business Technology Transfer (STTR) award for a project
                  to be carried out in conjunction with a South Dakota university. The company
                  owner lied when he certified to NSF that the PI was primarily employed by the
                  company, as required by the STTR program—in fact, the PI was not employed
                  by the company. When the owner received the initial $100,000 payment from
                  NSF, he converted most of it for his personal use.

                  The company owner was arrested following his indictment, and his trial is
                  scheduled to begin in November 2011.

                  Florida Company Owner Arrested for Fraud and Misuse of NSF
                  Logo

                  Our investigation found that a Florida company was using the NSF name and
                  logo fraudulently for commercial gain. The company posted NSF’s logo on its
                  website and falsely claimed that NSF inspected and audited its laboratories.
                  NSF does not have the responsibility or authority to inspect commercial labora­
                  tories, or to endorse commercial products. NSF special agents, with assistance
                  from agents with Homeland Security Investigations, executed a search warrant
                  of the company and arrested the owner. The sworn complaint alleges that
                  the owner committed wire and mail fraud, conspiracy, and misuse of a federal
                  government seal.

                  More Than $875,000 Recovered in Four Ongoing Investigations

                  Most investigations of wrongful charges to NSF awards result in repayment,
                  restitution, or funds put to better use concomitant with the conclusion of criminal
                  or civil legal action. In the following four cases, over $875,000 of award funds
                  were either recovered or retained by NSF and put to better use, even as the
                  investigations continue.

             8

                                                            OIG Semiannual Report    September 2011


•		 We determined that a PI at a Georgia university was also employed full-time
    as a tenured professor at a foreign university, unbeknownst to either institu­
    tion. The PI resigned and accepted a position at a Massachusetts univer­
    sity. The PI had one active NSF award at the Georgia university—however,
    based on our recommendation, NSF terminated the award, resulting in
    $295,933 funds put to better use.

•		 A second ongoing investigation disclosed that an employee at a Delaware
    university charged significant travel expenses to an NSF award that were
    unrelated to the award. The university found $133,000 to be unallowable,
    and our investigation found an additional $156,000 of fraudulent and
    unallowable costs. During our investigation, the employee manipulated
    account information and records to transfer improper costs off the award.
    Our investigation and the university’s review are ongoing, and we anticipate
    additional recoveries.

•		 A joint investigation with the Department of Energy (DOE) regarding dupli­
    cate funding related to NSF and DOE awards, found significant evidence
    that the NSF award was duplicative. NSF accepted our recommendation
    and terminated the award, providing NSF with $261,509 to put to better
    use. The matter was referred to the U.S. Attorney’s Office, and the joint
    investigation is ongoing.

•		 In the fourth ongoing investigation, a PI at a Texas university improperly
    subcontracted work on his NSF grant to a company in which he had 25
    percent ownership. The PI falsely represented to the university that the
    company was selected competitively. We confirmed the PI’s misrepresenta­
    tion, and the university immediately cancelled the subcontract and returned
    $30,000 which had been charged to the grant.

Two Former PIs Face Criminal and Civil Consequences for Fraud

A former PI from a New Jersey university pled guilty to theft of federal funds
in U.S. District Court. The PI submitted fraudulent claims to the university for
travel associated with his research for two NSF grants and an Army contract.
He fraudulently reported that he attended conferences in New York City, Miami,
New Jersey, and China, and created false registrations and receipts to support
his fraudulent reimbursement claims.

For two costly trips to China, the PI submitted receipts that obfuscated the fact
that he was hundreds of miles away from the conferences he claimed to have
attended. The university terminated the PI, and as part of the plea agreement,
the former PI paid restitution of $14,075 to NSF and $5,744 to the Army. He
was sentenced to one year unsupervised probation; and ordered to pay a
$5,000 fine. Civil claims based on the PI’s fraud are pending.

A former professor of an Indiana university was indicted on federal charges of
theft and mail fraud due to his misuse of NSF grant funds. Our investigation
determined that the professor used NSF grant funds to purchase items for




                                                                                     9

Investigations


                 personal use. The university conducted its own investigation and dismissed the
                 professor. Based on our recommendation, NSF suspended the former profes­
                 sor government-wide, pending the conclusion of our investigation.1

                 Two Awardees Repay Funds and Implement Strengthened Internal
                 Controls to Avoid Future Wrongdoing

                 Our proactive review of awards with no final project reports that had post award
                 requests for funds, identified an award to a community college system that drew
                 down $225,000 over 15 months after the expiration of the award. A portion of
                 the post-award funds had been used for payments to the project manager and
                 external evaluator, as well as a duplicate payment to the PI. As a result of our
                 investigation, the university returned $31,764 to NSF and hired new person­
                 nel—including a chief administrative officer to coordinate administrative and
                 financial efforts, and a grant compliance officer to assist faculty with reporting,
                 in order to strengthen its internal controls to prevent similar unallowable pay­
                 ments in the future.

                 Our investigation involving a PI with three NSF awards found that the PI was
                 using NSF award money for personal benefit. Our review of the PI’s financial
                 records revealed multiple charges made with purchase cards that were ap­
                 proved by the university, but did not have proper supporting documentation.
                 The university acknowledged that it had not provided the proper oversight of the
                 use of purchase cards and returned $5,000 for mischarges to its NSF awards.
                 The college made several administrative changes to strengthen its internal
                 controls to prevent similar unallowable payments in the future, including imple­
                 menting training on the use of purchase cards for federal awards and providing
                 detailed guidance to its budget manager on allowable and unallowable charges.

                 Criminal Wrongdoing by Four NSF Employees

                 We found that four NSF employees committed criminal wrongdoing arising from
                 their federal positions.

                 •		 A former NSF Senior Executive Service employee pled guilty in federal
                     court to felony charges for making a false financial disclosure to NSF and
                     for filing a false federal tax return.2 The former employee was sentenced to
                     two years probation, 200 hours of community service, and six months home
                     detention with electronic monitoring. He was also ordered to pay restitution
                     of $15,393 and a $100,000 fine. We recommended that NSF debar this
                     individual for ten years, and NSF’s decision is pending.

                 •		 Another NSF employee misused $3,220 of transit subsidy funds. The
                     employee signed up for the subsidy, received the SmarTrip® card used in
                     the D.C. area transit system, and gave the card to her daughter to use while
                     the employee continued to commute by car. She also applied for a higher
                     subsidy when the subsidy cap was raised, as well as a $945 “reimburse­
                     ment” for commuting costs she had not incurred. The employee admitted

                 1 March 2011 Semiannual Report, p.22.
                 2 March 2011 Semiannual Report, pp.20-21.


           10

                                                             OIG Semiannual Report   September 2011


   responsibility and, because her actions constituted theft of federal funds, we
   referred the matter to the U.S. Attorney’s Office. The employee agreed to a
   pretrial diversion: if she remains employed, repays the money, performs 50
   hours of community service, and avoids other wrongdoing, she will not be
   prosecuted. We referred the matter to NSF management, which issued her
   a letter of counseling.

•		 The third employee, who was under investigation by the FBI, pled guilty
    to submitting false statements to several federal agencies in employment
    applications. The employee falsified information about prior arrests,
    convictions, terms of imprisonment, salary history, roles at previous federal
    agencies, and the unfavorable circumstances under which she resigned
    from a prior federal position. We referred this matter to NSF management,
    which terminated this employee.

•		 The fourth employee pled guilty after indictment by a Virginia grand jury, to
    forgery charges, identity theft, and possession of a controlled substance.
    She was sentenced to two years in prison with 361 days suspended, fol­
    lowed by two years supervised probation. We referred this matter to NSF
    management, which terminated this employee.



RESEARCH MISCONDUCT INVESTIGATIONS
Research misconduct damages the scientific enterprise, is a misuse of public
funds, and undermines the trust of citizens in government-funded research. It is
imperative to the integrity of research funded with taxpayer dollars that NSF-
funded researchers carry out their projects with the highest ethical standards.
For these reasons, pursuing allegations of research misconduct by NSF-funded
researchers continues to be a focus of our investigative work. In recent years,
we have seen a significant rise in the number of substantive allegations of
research misconduct associated with NSF proposals and awards. The NSF
definition of research misconduct encompasses fabrication, falsification, and
plagiarism.

NSF takes research misconduct seriously, as do NSF’s awardee institutions.
During this reporting period, institutions took actions against individuals found
to have committed research misconduct, ranging from letters of reprimand to
delayed promotions and loss of salary. During this period, NSF’s actions in
research misconduct cases ranged from letters of reprimand to three years of
debarment.

We referred nine cases to NSF, which are summarized below. NSF’s decisions
are pending in eight of the nine cases.

Faculty Member Blames Students for Plagiarized Text in Multiple
NSF Proposals

A faculty member PI at an Illinois university plagiarized text into seven NSF
proposals submitted over a period of five years. In the proposal containing the
largest amount of plagiarism, an extensive section of text was copied directly

                                                                                     11

Investigations


                 from a review article. The PI admitted that he gave the review article to a
                 student so that the student could prepare background material for the proposal.
                 However, despite his knowledge of the student’s poor English composition
                 skills, the PI did not recognize the text was copied. We agreed with the univer­
                 sity’s finding that the PI was responsible for the plagiarized content in all of the
                 proposals. We recommended that NSF: make a finding of research miscon­
                 duct; send a letter of reprimand; debar the PI for one year; require certifications
                 and assurances for four years after debarment ends; prohibit the PI from serv­
                 ing as an NSF reviewer for three year after debarment ends; and require the PI
                 to complete a course in the responsible conduct of research (RCR).

                 Faculty Member Plagiarizes Text in Six NSF Proposals

                 Another faculty member PI at the same Illinois university plagiarized text into
                 six NSF proposals submitted over a three-year period. The PI admitted that
                 he cut-and-pasted material from a variety of sources for the background and
                 experimental sections of his proposals. He claimed that he intended to revise
                 the text and provide references at a later time. The PI also blamed students for
                 some plagiarized text in other proposals. The university found, and we agreed,
                 that the PI was responsible for the content of the proposals, and that his stan­
                 dard practice of proposal preparation was flawed and showed a disregard for
                 scholarly standards. We recommended that NSF: make a finding of research
                 misconduct; send a letter of reprimand; require certifications and assurances
                 for four years; prohibit the PI from serving as an NSF reviewer for four years;
                 and require the faculty member to complete an RCR course.

                 Multiple Cases of Plagiarism in SBIR Proposals

                 One of our focus areas is fraud in NSF’s SBIR program. In addition to activities
                 we undertake as part of the CIGIE SBIR Working Group and a group of special
                 agents from thirteen federal agencies discussed previously,3 we also carry out
                 proactive reviews of SBIR awards and awardees exhibiting fraud risk factors.
                 As a result, we currently have more than 40 open matters involving SBIR
                 companies and awards, and we anticipate that more will be forthcoming. When
                 we identify issues that have arisen in multiple cases, we may recommend that
                 the NSF SBIR program implement changes to address the issues, which we
                 did recently, as discussed on page 11. In the three cases discussed below,
                 which came to our attention through a variety of sources, we found significant
                 amounts of plagiarism in SBIR proposals. As a result, in the fraud awareness
                 presentation that we provide biannually to all of NSF’s SBIR Phase I awardees,4
                 we now emphasize that the standards of scholarly conduct are the same for
                 SBIR proposals and awards as for all other NSF proposals and awards.

                 In the first case, we established that a researcher copied hundreds of lines of
                 text into six SBIR proposals. The researcher copied broad swaths of text from
                 documents authored by other SBIR firms, from patent applications, and from
                 the scientific literature, without quotation, citation, or reference. None of the
                 proposals was funded, and, while the cumulative amount of plagiarism was


                 3 See March 2011 Semiannual Report, p.32.
                 4 See, e.g., September 2009 Semiannual Report, p.32,


           12

                                                              OIG Semiannual Report   September 2011


substantial, the amount in each proposal was not sufficient to warrant debar­
ment. NSF agreed with our recommendations and: made a finding of research
misconduct; sent a letter of reprimand; required three years of certifications and
assurances; prohibited the PI from serving as an NSF reviewer; and required
the researcher to complete an RCR course. The researcher appealed the
finding, and NSF’s decision is pending.

In a second case, the CEO/PI of a small business submitted an SBIR proposal
containing a significant amount of text copied from six sources. The PI told us
he did not know whether he or one of his colleagues copied the text, but he
took full responsibility. He said the small two-person company previously had
no process of proposal review, but that, due to the allegation raised, he was
implementing policies to prevent and detect future plagiarism. We concluded
that the PI committed plagiarism, and, based on our recommendations, NSF
made a finding of research misconduct against the PI; sent him a letter of
reprimand; required certifications for a period of two years; and required certifi­
cation of attending an ethics class within one year.

In a third investigation, the president of a small business submitted six propos­
als containing plagiarism. During the investigation, he acknowledged the
proposals contained inadequately cited text, but said the copying was uninten­
tional. He attributed the plagiarism to his lack of awareness of the requirement
to cite the same source whenever it is quoted throughout a proposal, and his
focus on the research ideas contained within the proposals. He claimed he has
taken corrective measures to ensure proper citation; however, the amended
proposals he provided to our office to illustrate that he now understood
rules of proper citation made it clear that he still did not understand how to
adequately cite material he incorporates into his proposals. We concluded that
the president recklessly committed plagiarism, and recommended that NSF:
make a finding of research misconduct; send him a letter of reprimand; require
certifications and assurances from him for a period of two years; and require
certification of attending an ethics class within one year.

Ghost Writing Research Faculty Member Plagiarizes in NSF
Proposal

A new research faculty member at a New York university plagiarized text and a
figure from published articles in an NSF proposal submitted under the names
of a university dean as PI and department chair as co-PI. The proposal did not
name the research faculty member as an author of the proposal, contrary to
NSF guidance on proposal preparation. The PI and co-PI asserted that inclu­
sion of the research faculty member’s name as senior personnel in the budget
justification was sufficient to acknowledge his authorship. We disagreed and
referred an investigation to the university, which determined that the research
faculty member committed plagiarism. We concurred with the university and
recommended that NSF: make a finding of research misconduct against the
faculty member; require certifications and assurances for two years; require
completion of an ethics course; and ban him from serving NSF as a reviewer,
advisor, or consultant for two years.




                                                                                      13

Investigations


                 Department Chair Plagiarizes in Multiple NSF Proposals

                 Our investigation determined that a department chair at a Michigan university
                 plagiarized text and figures into three NSF proposals he submitted as PI. The
                 PI implicated a laboratory manager in his department who provided some of the
                 copied material in one of the proposals. However, the university investigation
                 determined that the manager was unaware that the material was to be used in
                 a proposal, did not edit or revise the proposal, and (contrary to NSF guidance)
                 was not listed as an author. We agreed with the university’s conclusion that
                 the PI was responsible for the plagiarized content in all three proposals. We
                 recommended that NSF: make a finding of research misconduct; send a letter
                 of reprimand, require two years of certifications and assurances; prohibit the PI
                 from serving as an NSF reviewer for two years; and require the PI to complete
                 an RCR course.

                 New Faculty Member Plagiarizes from a Declined NSF Proposal

                 A new professor at a South Dakota university knowingly plagiarized a significant
                 amount of text in a proposal he submitted to NSF as PI. When the PI had been
                 a postdoctoral researcher, his mentor received a confidential proposal to review
                 for NSF—instead of reviewing the source proposal himself, the mentor asked
                 the PI to review it because of the PI’s expertise in the particular methodology.
                 When we brought the identical text to the PI’s attention, he admitted that
                 he copied from the proposal he received from his mentor. The university’s
                 investigation concluded that the PI had knowingly plagiarized, but there was
                 not sufficient evidence to show that the PI was informed or aware of the confi­
                 dential nature of the proposal he was asked to review. We concurred with the
                 university and recommended that NSF: make a finding of research misconduct;
                 require certifications and assurances for two years; require completion of
                 an RCR course; and ban the PI from serving NSF as a reviewer, advisor, or
                 consultant for two years.

                 The mentor admitted to not obtaining the required permission from NSF before
                 sharing the proposal with his postdoc. Because there was no evidence that the
                 mentor committed any other inappropriate acts, we admonished him about the
                 importance of confidentiality in the peer review process and closed his case
                 with no further action.

                 PI Relied on Consultant’s and Student’s Plagiarized Text

                 Our investigation concluded that a Texas PI plagiarized into an assessment
                 paper, which he had prepared and provided to one of NSF’s programs at the
                 request of a program officer. The PI had received preprints of articles from
                 a researcher, which he provided to a consultant and a graduate student who
                 helped prepare the paper. The PI said he failed to recognize that the paper
                 contained verbatim text from the preprints without citation. The university
                 concluded that plagiarism occurred, and the PI’s failure to adequately review
                 the consultant’s and graduate student’s work constituted a significant departure
                 from the accepted practices of the research community. The university
                 concluded the PI recklessly plagiarized, and delayed the PI’s appointment to a
                 chaired professorship and denied him summer salary. We concurred with the

           14

                                                               OIG Semiannual Report     September 2011


university and recommended that NSF: send the PI a letter of reprimand inform­
ing him it has made a finding of research misconduct against him; require him to 

complete an RCR course and provide certifications for one year.

OIG Finds Insufficient Evidence That a Researcher Committed
Research Misconduct

Our office was notified by a Pennsylvania university that it had initiated an
inquiry into allegations of research misconduct by an NSF-funded PI. The alle­
gations included falsifying research data, and concealing, deleting, or otherwise
destroying emails related to the data falsification. The university never received
any formal allegations against the PI; rather, the university initiated its inquiry to
pursue allegations based on publicly released documents and articles.

Following inquiry and subsequent investigation, the university determined there
was no substance to the allegations. During our review of the university’s
investigation report, we were concerned that the university did not adequately
review the allegation of data fabrication. Therefore, we initiated our own
investigation and interviewed the subject as well as several experts in the
research field who were critical of the subject’s research. Much of the current
debate related to these allegations focuses on the viability of the statistical
procedures the PI employed, the statistics used to confirm the accuracy of the
results, and the degree to which one specific set of data has an impact on the
statistical results. These concerns are all appropriate for scientific debate and
to assist the research community in directing future research efforts to improve
understanding. Such scientific debate is ongoing but does not, in itself, consti­
tute evidence of research misconduct. Therefore, based on our review of the
information available and the aforementioned interviews, we determined that
there was insufficient evidence to support an allegation of research misconduct.

Actions by NSF Management on Previously Reported Research
Misconduct Investigations

NSF has taken administrative action to address our recommendations on seven
research misconduct cases reported in previous semiannual reports. In each
case, NSF made a finding of research misconduct, issued a letter of reprimand,
and required completion of a course in ethics training. NSF also took additional
significant actions in response to our recommendations as summarized below.

•		 In the case of a lab technician at an Illinois university who fabricated data
    for a series of assay measurements,5 NSF debarred the individual for three
    years, required certifications and assurances for three years after debar­
    ment ends, and prohibited the technician from serving as a reviewer of NSF
    proposals for six years.




5 September 2003 Semiannual Report, p.10.


                                                                                         15

Investigations


                 •		 We reported on a graduate student at a Vermont university conducting
                     NSF-funded research who intentionally falsified data and results, initially
                     withholding the truth regarding her actions from her advisor, the PI.6 NSF
                     accepted our recommendation to debar the student for three years, and
                     require certifications and assurances for three years following the debar­
                     ment period.

                 •		 NSF debarred a Florida PI for two years for receiving funding from three
                     agencies for the same project.7

                 •		 NSF proposed a one-year debarment of a Louisiana university administrator
                     who knowingly copied a funded NSF proposal into his own proposal for a
                     substantially similar project.8 NSF also required certifications, assurances,
                     and a ban from serving as a reviewer of NSF proposals for 3 years following
                     the debarment period. The final debarment notice is pending.

                 •		 NSF required three years of certifications and assurances and prohibited
                     service as an NSF merit reviewer for an Indiana university professor who
                     plagiarized in two proposals.9

                 •		 NSF required a PI at an Alabama university who plagiarized in three NSF
                     proposals to submit certifications and assurances for two years.10

                 •		 NSF required certifications and assurances from a PI at an Alabama uni­
                     versity who plagiarized into two proposals he submitted to NSF.11 NSF also
                     barred the PI from serving NSF as a reviewer for one year.



                 ADMINISTRATIVE INVESTIGATIONS

                 Employee Abuses NSF’s Electronic Systems

                 Our investigation, in response to an allegation of time and attendance abuse,
                 found that an NSF employee often manually changed her sign-in time and
                 frequently failed to sign out. The employee also used her NSF position to
                 engage in several deceptive schemes. She falsified her NSF Earnings and
                 Leave Statement to have it show she made less than she did, so she could
                 claim greater subsidy for her child at a child care center. She sent an email to
                 her co-worker asking him to lie to social services about being her supervisor,
                 how much she earned at NSF, and her leave status. The employee also permit­
                 ted family members to identify her as their work supervisor on their résumés,
                 even though the employee is not a supervisor at NSF and none of her family
                 members has ever been employed at NSF. We referred the matter to NSF
                 management for consideration of appropriate personnel action, which is pend­
                 ing.

                 6 March 2011 Semiannual Report, p.24.
                 7 September 2010 Semiannual Report, p.12.
                 8 September 2010 Semiannual Report, p.9.
                 9 March 2011 Semiannual Report, pp.25-26.
                 10 March 2011 Semiannual Report, p.25.
                 11 March 2011 Semiannual Report, p.26.


           16

                                                            OIG Semiannual Report   September 2011


MANAGEMENT IMPLICATION REPORTS

Review of NSF Wireless Device and Service Purchases

Our review of wireless device and service purchases made by NSF offices
identified nearly $530,000 in such purchases in FY 2009 and more than
$660,000 in FY 2010. NSF owns more than 700 wireless devices, including
smart phones and tablets, for approximately 1,500 staff.

We found that NSF’s ad hoc, decentralized process for purchasing wireless
assets and services has resulted in a myriad of devices and plans across the
Foundation, and frequently even within individual offices. NSF does not have a
policy for the procurement and use of wireless devices and services, nor does
it have any policy regarding which NSF staff need wireless devices or which
devices are appropriate for their needs.

Further, individual offices within the agency generally purchase devices and
plans on an item-by-item basis. Because the purchases are small and not
made centrally, NSF had not taken advantage of economies of scale or govern-
ment-wide purchasing programs through the General Services Administration.

We identified wide ranges in the costs paid for the variety of wireless devices,
service plans, international charges, and roaming expenses across the
Foundation. For example, one office issued 40 smart phones to its staff with a
variety of service plans that ranged from $50 to $100 per month. Another office
provided smart phones to 5 of its program officers with expansive plans for
$150 per month.

In addition to these matters, we found that many of NSF’s wireless devices had
not been certified to meet federal encryption standards. To protect the integrity
of the data stored on agency wireless devices, OMB has required federal agen­
cies to use only devices that comply with federal encryption standards. NSF
carried out its own testing and risk analysis, and concluded that the security on
the non-compliant devices was adequate.

We concluded that, in the current fiscal environment, NSF’s practice of purchas­
ing wireless assets and services without a policy warrants reassessment. We
recommended that NSF:

•		 Develop and implement an agency-wide policy on the purchase and use of
    wireless devices, which should include assessment of which staff positions
    actually need wireless devices, the device functions needed to perform
    official duties, guidelines for appropriate use, the service plans needed to
    perform official duties, and the providers from which those devices and
    service plans are available. NSF agreed to do so.

•		 Provide centralized procurement of wireless devices and service plans
    to ensure NSF can monitor and manage costs, and receive the benefit of
    economy of scale purchasing, taking advantage of relevant GSA contracts.
    NSF agreed to prepare an assessment of the costs, benefits, and feasibility
    of a centralized approach to procurement of wireless devices, including
    programs offered by GSA.
                                                                                    17

Investigations


                 •		 Require each user who possesses or receives a wireless device to acknowl­
                     edge, in writing, his or her understanding of the appropriate use guidelines,
                     and recognition that the device is federal government property and the
                     user has no right of privacy; if feasible, implement a banner notice for all
                     NSF-provided wireless devices, providing the same information provided
                     when logging into NSF’s computer network; address the issue of security
                     and use of wireless devices in its annual IT security briefings; and update its
                     internal policy on personal use of IT resources to include wireless devices
                     and services. NSF agreed to all of these recommendations.

                 Changes Recommended to the SBIR / STTR Program to Reduce
                 Risk of Fraud

                 We reviewed recent investigations related to the Small Business Innovation
                 Research (SBIR) and Small Business Technology Transfer (STTR) programs, to
                 determine whether NSF could reduce the risk of fraud by requesting additional
                 information from awardees. One recurrent issue involved the requirement that
                 SBIR / STTR companies carry out a certain percentage of the research work
                 themselves. We identified SBIR / STTR firms that did not either own or rent
                 space to perform the funded work. In some cases, these companies improp­
                 erly used facilities at research universities that were available to them through
                 outside positions they held at the universities.

                 The PIs on SBIR / STTR awards are required to be primarily employed by the
                 company during the award. Several investigations identified company owners
                 taking advantage of students or family relationships to circumvent this rule. In
                 these cases, the individuals identified by the companies as PIs were not the
                 individuals responsible for the proposed research, but named as PIs in the pro­
                 posals only because the persons conducting the research were ineligible due
                 to the primary employment rule. In some cases, issues with company facilities
                 and PI relationships were interrelated, because professors created outside
                 companies with students, spouses, or other family members identified as PIs
                 and the actual research was all carried out in the PI’s university laboratory.

                 To address these vulnerabilities, we recommended that NSF take the following
                 actions regarding the SBIR / STTR programs:

                 •		 Require proposals to contain contracts, agreements, or letters of support
                     from research institution partners that are submitted or signed by someone
                     other than an individual named as working on the project or receiving funds;

                 •		 Require awardees using outside facilities to provide proof of an existing
                     rental or facility use agreement upon the start of an award and in the interim
                     and final reports;

                 •		 Require awardees to list all company officers and disclose their primary
                     employers prior to each award; and

                 •		 Require awardees to disclose any family or student / postdoc / professor
                     relationships or potential conflicts of interests between company personnel
                     and subcontractor personnel prior to each award.

                 NSF’s response to these recommendations is pending.
           18
                                                           OIG Semiannual Report   September 2011


Security Issues at NSF Raise Concerns

As a result of several investigations, we initiated a review of contractor em­
ployee background investigations, as well as a broader assessment of NSF’s
system for ensuring physical security for NSF’s staff and infrastructure.

Our assessment of NSF’s physical security policies and procedures identified
numerous vulnerabilities. NSF management responsible for security were
aware of these issues, were receptive to addressing the vulnerabilities we
pointed out, and are taking affirmative steps to address them. Therefore, we
are working with NSF management, monitoring and assessing the steps they
are taking to address these sensitive issues.

NSF contracts with private companies to provide a variety of services. Each
NSF contractor employee who requires routine physical access to NSF or
to NSF computer systems for more than six months is required to have a
background investigation. Following an investigation in which we learned that a
contractor employee had not undergone a required background investigation for
eight months, we reviewed NSF’s current policies and practices regarding the
entrance process for contractor employees to determine if contractor employ­
ees are complying with these policies and practices. We found that NSF did
not have a central office or database to maintain such information about these
contractor employees, and therefore, we could not assess the extent to which
contractor employees comply with the background investigation requirement.
As a result, NSF does not have a mechanism to determine which contractor
employees are at NSF, or whether those employees have undergone required
background investigations.

The issues we identified raise significant security concerns with respect to
compliance with requirements of the contractor employee entrance process.
Accordingly, we recommended that NSF:

•		 Take appropriate action to ensure that: all contractor employees who
    require a background investigation are identified; that the background
    investigations are conducted as soon as is practicable (preferably before
    they begin work at NSF); and that appropriate action is taken in a timely
    manner when the background investigation raises issues; and

•		 Confirm that its processes for ensuring that NSF employees obtain
    background investigations in a timely manner, and ensuring that employees
    and contractor employees who require security clearances obtain them in a
    timely manner and maintain them, are functioning well.

NSF’s response to these recommendations is pending.

Human Subjects Research Concerns at Two Universities

In partnership with NSF, OIG is investigating the use of NSF award funds by
two universities and their procedures for approving and monitoring human
subjects research resulting in combined total of $300,000 in funds put to better
use. In the first instance, a professor at a California university submitted a

                                                                                   19

Investigations


                 progress report to NSF that described research activities outside of the scope
                 of the NSF award. The PI had not sought NSF’s prior approval for the change
                 in scope. NSF suspended the award and subsequently determined that the
                 PI had further changed the scope of the project by terminating a collaborative
                 subaward, again without the requisite NSF preapproval.

                 In the second instance, NSF suspended a Texas university professor PI’s
                 awards when the university notified NSF that it had suspended the PI’s
                 research. Although the university subsequently lifted the suspension, after
                 the NSF program and OIG requested details about the university’s decision
                 making, the university re-suspended the PI’s work and conducted a second,
                 extensive review. It ultimately reinstated the work, allowing the PI to use the
                 collected data. NSF has not lifted its suspension and as a consequence did
                 not fund the next grant increment. Both NSF and OIG have ongoing concerns
                 about the adequacy of the university’s monitoring and oversight of sensitive
                 research involving human subjects and its management of award funds.

                 NSF recently alerted program officers about a university that merely conceptu­
                 ally approved the human subjects research in a proposal. NSF has directed
                 program officers to scrutinize proposals carefully to ensure that PIs obtain the
                 appropriate IRB approval for conducting research involving human subjects.



                 Follow-Up from Previous MIRs

                 NSF Takes Steps to Reduce Costs of Refreshment Purchases for
                 Meetings

                 We reviewed NSF’s expenditure of nearly $500,000 a year to provide refresh­
                 ments for merit review panelists and others attending meetings at NSF.12 We
                 concluded that NSF would benefit from more centralized purchasing, and
                 recommended that, if NSF chooses to continue providing such refreshments,
                 it should centralize its procurement to improve control over the process and
                 ensure it is carried out reasonably, consistently, and responsibly. NSF decided
                 that, because it is “crucial that panels operate in an environment that maximizes
                 thoughtful and efficient deliberation,” it will continue to provide refreshments
                 comprising an array of pastries, fruit, and hot and cold beverages. NSF com­
                 mitted to taking specific steps to control and reduce costs, and has taken the
                 following actions:

                 •		 NSF instituted a $25 daily limit per panelist on light refreshments, and urged
                     responsible NSF staff to look for opportunities to spend below the $25
                     maximum per panelist. NSF estimated that this will save approximately
                     $50,000 annually, reducing the cost of refreshments from approximately
                     $500,000 per year to $450,000. We will review cost data provided by NSF
                     to assess the efficacy of this limit.

                 •		 NSF issued a staff bulletin to reinforce best practices regarding the
                     purchase of light refreshments, which defined “light refreshments” and gave
                     specific examples of appropriate and inappropriate purchases.


           20

                                                            OIG Semiannual Report    September 2011


NSF has begun exploring the costs and benefits associated with further
centralization of purchasing light refreshments, and the establishment of a fully
centralized purchasing process if the benefits are determined to outweigh the
costs. This process is continuing and is scheduled to be completed by March
1, 2012. We have urged NSF to aggressively assess the risks and internal
controls associated with the various options it is considering, and to also ensure
that those employees that are currently purchasing refreshments are seeking
the most cost effective deals.

NSF Concludes Actions to Address Recommendations in Response
to Review of Oversight Plans for Projects Involving International
Subawardees

We reviewed Oversight Plans for institutions collaborating with international
subawardees in an NSF program.13 The lead institutions were required to
submit and implement Oversight Plans to ensure subawardee compliance with
a variety of requirements. Our review determined that the Plans generally
did not substantively address all of the requirements, and recommended
improvements. NSF agreed and stated that it would: modify language in the
next solicitation to ensure collaborative Plans that fully address the program’s
requirements; and encourage current grantees to develop Plans that explain
how they will address RCR training and research misconduct enforcement.14

NSF modified its solicitation for the next round of proposals for the program to
clearly require Oversight Plans that address all of the program’s requirements.
NSF also wrote to the current grantees and asked them to provide a summary
of the current Oversight Plan that includes a description of how the grantees
would address RCR training and research misconduct enforcement—however,
most of the awardees did not substantively improve their Plans in this regard.
NSF does not intend to take any further action to improve these awardees’
Plans; accordingly, we will conduct another review of this program to assess
awardees’ compliance with all of the program’s requirements.




                                                                                     21

Investigations




           22

                                                      Audits & Reviews
Eleven audit reports and reviews were issued during this reporting
period. Auditors found that an awardee’s proposed budget for
a major construction project included $76 million of unallowable
contingency costs, bringing unallowable contingency costs in
proposals for three major construction projects to $226 million. In
addition, an audit questioned more than $120,000 of award costs
that were claimed before they were paid. We recommend that NSF,
in consultation with the OIG, resolve the recommendations.

We also recommended that NSF develop a procedure to ensure
that conflicts of interest at its grantee institutions are managed,
reduced, or eliminated.

NSF’s Current Policy Does Not Provide Assurance of Ad-
equate Oversight of Financial Conflicts of Interest

NSF’s Conflicts of Interest Policy states that a conflict of interest ex­
ists when a financial interest could significantly affect NSF-funded
research. It is vital that such conflicts are properly overseen and
managed, as poorly managed or hidden conflicts can create the
perception of misconduct or that public resources could be misused
for private benefit.

Concerned about NSF’s oversight of grantee financial conflicts of
interest, the then-Ranking Member of the Senate Committee on
Finance requested that we conduct an audit of financial conflict
of interest at institutions that received NSF grants. We found that
grantee institutions had not reported any unmanageable conflicts
to NSF during the three-year scope of our audit between April 1,
2007 and March 31, 2010. Under NSF’s policy, institutions are only
required to report conflicts that they cannot satisfactorily manage.
In addition, the requirement for institutions to report an unmanage­
able conflict is only a reporting standard and does not demand
action on NSF’s part.

Based on the lack of unmanageable conflicts reported to NSF, we
expanded our audit to examine the conflict of interest policies and
procedures at nine institutions to determine whether their programs
complied with NSF’s policy. We identified 17 policy and procedural
standards in NSF’s policy and found all nine conflicts programs              HIGHLIGHTS
were properly implementing 11 of the required elements. While we
determined that some of the six omitted elements were technical              Audits of NSF
in nature, others such as a lack of arrangements to keep NSF’s                Operations.....................23
                                                                             Audits of NSF
Office of General Counsel informed of unmanageable conflicts,
                                                                              Awardees.......................25
and a lack of adequate enforcement mechanisms and sanctions                  Audit Resolution ............. 27
raised concerns about the adequacy of the institutions’ policies to          A-133 Audits ....................27
enforce NSF’s standards and to ensure that conflicts were properly
managed.
                                                                            23
Audits & Reviews


                   Our audit also identified aspects of NSF’s existing policy and its oversight of
                   conflicts that raised concerns. Based on its current policy, NSF has limited
                   information on institutions’ implementation of their conflicts program or the
                   methods used to manage reported conflicts. Specifically, NSF is not required to
                   review or follow-up with the institutions on reported unmanageable conflicts. In
                   addition, NSF is not required to provide monitoring and oversight of the institu­
                   tion’s implementation of their conflicts programs. Finally, institutions are not
                   required to notify NSF when an institution permits research to continue without
                   imposing conditions or restrictions on an identified conflict.

                   Because its conflicts of interest policy does not require it to oversee or man­
                   age grantee institutions’ conflicts programs, NSF lacks assurance that the
                   institutions are properly managing, reducing, or eliminating conflicts or that
                   unmanageable conflicts are being reported.

                   We recommended that NSF develop a procedure to ensure that conflicts at
                   its grantee institutions are managed, reduced, or eliminated. NSF stated that
                   it will develop an appropriate plan to ensure sufficient oversight of unmanage­
                   able conflicts and that it is informed of instances where institutions may allow
                   research to continue without the imposition of conditions or restrictions.

                   Better Documentation Would Enhance Accountability and
                   Transparency of NSF’s Priority Goal Progress

                   In June 2009, the Office of Management and Budget (OMB) requested that
                   agencies identify and commit to a limited number of priority goals with high
                   value to the public. The purpose of the initiative was to improve the perfor­
                   mance and management of federal government agencies. Documenting the
                   results achieved compared to the goals established was intended to improve
                   performance accountability and transparency.

                   NSF’s priority goal is to improve the education and training of an innovative sci­
                   ence, technology, engineering, and mathematics (STEM) workforce. It commit­
                   ted NSF to having evaluation and assessment systems in place for at least six
                   major STEM workforce development programs at the graduate or postdoctoral
                   level by the end of FY 2011.

                   Our audit found that NSF has taken steps through the priority goal process
                   to develop a framework for evaluating and assessing its STEM programs.
                   However, the detail and documentation NSF provided to support accomplish­
                   ment of milestones to meet its goal was inadequate and did not provide the
                   intended transparency and accountability. Specifically, NSF reported that it had
                   completed 14 milestones for achieving its priority goal, but based on the support
                   provided we could only verify that two were completed as claimed. To attain the
                   transparency and accountability the priority goal process was intended to have,
                   it is essential for NSF to maintain verifiable support for the progress it reports
                   toward its goal.




             24

                                                              OIG Semiannual Report   September 2011


We recommended that NSF ensure that it develops and maintains competent,
contemporaneous evidence to support the attainment of each milestone and
goal it reports and enable independent verification of claimed results; and that
it periodically review the support for the priority goal results, so any gaps in
evidence for claimed results will be identified and addressed in a timely fashion.

NSF concurred with the recommendation.

$76 Million in Unallowable Contingency Costs in Unauditable
Construction Proposal for National Ecological Observatory Network

Auditors found significant deficiencies in the $433.7 million cost proposal for
construction of the National Ecological Observatory Network (NEON) that
render the proposal unacceptable for audit. As a result, NSF does not have as­
surance that the construction proposal is an acceptable basis for funding. The
proposal cannot be audited because the amounts proposed for itemized cost
categories such as labor, overhead, equipment, and other items in the proposal
do not agree with the amount of the supporting documentation provided for
each category. Several other significant deficiencies were also found in the
proposal. Further, the proposal includes approximately $76 million in unallow­
able contingency costs.

It was recommended that NSF request NEON to resubmit an adequate
construction proposal with the unallowable contingencies removed, have the
proposal audited, and base NSF funding on the results of the audit. NEON
indicated that it would work collaboratively with the auditors to provide further
explanation of its cost proposal methodologies and to provide the information
sought by the auditors.

”The auditors’ findings of unauditable proposals and unallowable contingencies
in this award are in addition to those discussed in our September 2010 and
March 2011 semiannual reports. In September 2010, we reported that a non­
profit organization, Consortium for Ocean Leadership, proposed $88 million
of unallowable contingency costs in a $386 million budget. In March 2011, we
reported $62 million in unallowable contingencies in a $298 million unauditable
cost proposal to construct the Advanced Technology Solar Telescope. The
OIG, DCAA auditors, and NSF management are working together to address
unverifiable proposed costs and the inclusion of unallowable contingencies in
NSF awardees’ large construction proposals.

More than $120,000 in Questioned Costs on NSF Award

An audit of the Field Museum of Natural History questioned $123,663 for
claimed costs that had not yet been paid. The NSF funds supporting the NSF
grant had expired before the Field Museum paid for the claimed costs. The
Museum claimed these costs in advance to prevent losing access to these
expiring funds.

In addition, approximately $94,000 in subaward costs, equipment, and other
costs were misclassified in the Museum’s accounting system. A misclassifica­
tion of this nature is particularly significant because, as of September 2010, the

                                                                                      25

Audits & Reviews


                   Museum had 39 active awards totaling $13.4 million. Without proper monitoring
                   of actual to budgeted costs, there is an increased risk that funds may not be
                   spent as intended and that indirect cost charges may not be correct.

                   Recommendations included that the Field Museum return the $123,663 in
                   claimed costs and that it implement procedures to prevent future claims for such
                   costs. The Field Museum disagreed with the questioned costs and the recom­
                   mendations.

                   Improvements Needed in AUI’s Accounting System

                   Associated Universities, Inc. (AUI) is the management organization for the
                   NSF’s National Radio Astronomy Observatory, including the Atacama Large Mil­
                   limeter Array which is under construction. An audit found that AUI’s accounting
                   system is generally adequate for accumulating and billing costs under govern­
                   ment awards. However, several deficiencies were identified in procedures used
                   to calculate and allocate indirect costs to NSF awards. These weaknesses
                   could result in indirect costs being inequitably allocated or overcharged to NSF.
                   Improvements are also needed to ensure the accuracy of the costs reported to
                   NSF for reimbursement. The audit also included a review of AUI’s executive
                   compensation, which was found to be reasonable.

                   The audit made several recommendations including that AUI revise its indirect
                   cost procedures and correct any errors in claimed costs submitted to NSF.
                   AUI agreed with the audit’s recommendations and stated that it will implement
                   corrective action to address the deficiencies identified.

                   University of Alaska-Anchorage Needs to Improve Grants
                   Management

                   Our review of federal grant management processes at the University of Alaska
                   – Anchorage found that the University needs to improve management of its $1.3
                   million award to broaden participation of underrepresented groups in STEM;
                   revise its labor effort reporting process to ensure reliable confirmation of all
                   salary charges to NSF grants; and improve the property management system to
                   safeguard equipment purchased with NSF funds.

                   We found that the University inappropriately spent more than $533,000 of the
                   $1.3 million of its broadening participation award funds for purposes that did
                   not benefit the grant, and we questioned $78,093 of unallowable entertainment,
                   food, and other costs charged to this award. In addition, labor effort reports
                   supporting salary charges to NSF grants were improperly certified by individuals
                   who did not have first-hand knowledge of the employee’s work activities. This
                   control weakness raises concerns about the reasonableness of the $4 million of
                   labor costs budgeted on all of the University’s NSF grants. This is particularly
                   important as $1.3 million of the total $4 million of budgeted NSF grant salaries
                   were for ARRA funded awards. Lastly, UAA did not maintain timely updates to
                   its property records.

                   The University stated that it is taking steps to improve its grants management
                   processes.

             26

                                                             OIG Semiannual Report   September 2011


AUDIT RESOLUTION

Recipients of Recovery Act Funds Strengthen Controls over
Quarterly Reporting and Grants Management

The American Recovery and Reinvestment Act (ARRA) requires recipients to
submit quarterly reports that include data related to projects funded and the
impact of these projects on job creation. It is essential for this data to be ac­
curate in order to meet Recovery Act accountability and transparency goals.
Six institutions — University of Alaska-Anchorage, New Jersey Institute of
Technology, University of Washington, American Museum of Natural History,
California Academy of Sciences, and Institute of Global Environment and
Society--strengthened controls over their quarterly reporting in response to our
audits. In addition, NSF expanded outreach and technical guidance to ensure
that Recovery Act fund recipients understand the Act’s reporting requirements.

In addition, two of the institutions strengthened controls over their grants
management processes, and two institutions developed new policies to prevent
debarred or suspended vendors from obtaining federal awards.

University of Nevada-Reno Agrees to Implement Changes to its
Effort Reporting System

In response to our January 2010 audit, the University of Nevada-Reno has
taken several steps to strengthen its effort reporting system, including commit­
ting to conduct periodic evaluations of its effort reporting processes and devel­
oping a grants management training program. NSF also sustained $14,019 in
questioned costs.

Carnegie Institution of Washington Agrees to Improve Its Financial
Management Processes

In response to our July 2009 audit, Carnegie Institution of Washington has
agreed to take several steps to improve its financial management processes
including increasing grant monitoring activities, strengthening controls over
journal entry procedures to ensure that cost transfers to NSF awards were
appropriate, and revising procedures to properly segregate duties related to its
disbursement process. NSF also sustained $23,218 in questioned costs.


A-133 Audits
Single Audit Findings Go Uncorrected at 31 Awardees

OMB Circular A-133 provides audit requirements for state and local govern­
ments, colleges and universities, and non-profit organizations receiving federal
awards. Under this Circular, covered entities that expend $500,000 or more
a year in federal awards must obtain an annual organization-wide audit that
includes the entity’s financial statements and compliance with federal award
requirements. Non-federal auditors, such as public accounting firms and state

                                                                                     27

Audits & Reviews


                   auditors, conduct these single audits. The OIG reviews the resulting audit
                   reports for findings and questioned costs related to NSF awards, and to ensure
                   that the reports comply with the requirements of OMB Circular A-133.

                   The 170 audit reports12 reviewed and referred to NSF’s Cost Analysis and
                   Audit Resolution (CAAR) Branch this period covered NSF expenditures of $7.3
                   billion during audit years 2007 through 2011, and resulted in 209 findings at 86
                   NSF awardees. Seven awardees received qualified opinions on their financial
                   statements and 16 awardees received qualified or adverse opinions on their
                   compliance with federal grant requirements, including 7 awardees who received
                   qualified opinions on compliance for programs which included NSF ARRA
                   expenditures. The auditors reported 67 repeat findings, including 18 repeat
                   material weaknesses and 26 repeat significant deficiencies in internal control
                   over compliance with federal requirements. The failure of these 31 awardees
                   (36 percent of awardees with findings) to implement corrective actions could call
                   into question their ability to manage NSF funds. Twenty-one findings identified
                   by the auditors resulted in $1.3 million in questioned costs to NSF awards, of
                   which $1.2 million were caused by lack of adequate supporting documentation
                   of the amounts charged to NSF awards. Awardees’ lack of internal controls and
                   noncompliance with federal requirements included: untimely and/or incorrect
                   reporting of time and effort; inadequate support for salary/wages, equipment,
                   travel, and indirect costs charged to awards; inadequate monitoring of subre­
                   cipients; inability to prepare the financial statements; and late submission of
                   financial and/or progress reports.

                   We also examined 54 management letters accompanying the A-133 audit
                   reports and found 18 deficiencies that affected NSF. Auditors issue these
                   letters to identify internal control deficiencies that are not significant enough to
                   include in the audit report, but which could become more serious over time if
                   not addressed. The deficiencies included inadequate tracking, managing, and
                   accounting for NSF costs, and ineffective segregation of duties. These deficien­
                   cies affected control processes that are essential to ensuring stewardship of
                   NSF funds and preventing fraud and abuse.

                   Desk Reviews Find Audit Quality and Timeliness Issues in 35
                   Percent of Single Audits

                   The audit findings in A-133 reports are useful to NSF in planning site visits and
                   other post-award monitoring. Because of the importance of A-133 reports to this
                   oversight process, the OIG reviews all reports for which NSF is the cognizant
                   or oversight agency for audit, and provides guidance to awardees and auditors
                   for the improvement of audit quality in future reports. In addition, OIG returns
                   reports that are deemed inadequate to the awardees to work with the audit firms
                   to take corrective action.

                   We reviewed 74 audit reports13 for which NSF was the cognizant or oversight
                   agency for audit, and found that 48 fully met federal reporting requirements.



                   12 March 2011 Semiannual Report, p.26.
                   13 March 2011 Semiannual Report, pp.28-29.


             28

                                                             OIG Semiannual Report    September 2011


Twenty-six reports (35 percent), including 3 reports with ARRA expenditures,
contained audit quality and timeliness issues. The quality issues we identified
included 11 reports in which the Schedule of Expenditures of Federal Awards
did not provide sufficient information to allow for identification of awards
received from non-federal “pass-through” entities or did not adequately describe
the significant accounting policies used to prepare the schedule. Of the 18
reports which included audit findings, 8 reports (44 percent) failed to adequately
present the required elements of the finding to assist auditee management in
correcting the reported deficiency, and 8 reports failed to adequately present the
required elements of management’s plan to correct the deficiencies reported. In
addition, 5 reports were submitted after the due date required by OMB Circular
A-133. Finally, 4 of the reports repeated errors which we had identified to the
awardees and auditors during reviews of prior years’ reports.

We contacted the auditors and awardees, as appropriate, for explanations of
each of the potential errors. In most cases, the auditors and awardees either
provided adequate explanations and/or additional information to demonstrate
compliance with federal reporting requirements, or the error did not materi­
ally affect the results of the audit. However, we rejected two reports due to
substantial non-compliance with federal reporting requirements, and instructed
the auditors to revise and resubmit a 3rd report which contained technical
deficiencies. We issued a letter to each auditor and awardee informing them of
the results of our review and the specific issues on which to work during future
audits to improve the quality and reliability of the report.

Two OIG Quality Control Reviews Find Significant Audit Deficiencies
In Single Audits by Public Accounting Firms

Quality Control Reviews consist of on-site reviews of auditor documentation
in support of Single Audits. The 2007 report issued by the President’s Council
on Integrity and Efficiency, which we reported previously14, demonstrated that
quality control reviews are an important tool for determining whether Single
Audits met government auditing and reporting requirements, and for helping to
improve future audit quality.

During this period, we issued reports of our quality control reviews of two Single
Audits of NSF awardees. In both cases we found significant audit quality
deficiencies in the audits and instructed the auditors to conduct additional work.
Further, due to the serious nature of the deficiencies we referred both audit firms
to the Professional Ethics Division of the American Institute of Certified Public
Accountants.

The audit quality deficiencies in the single audit performed at Virginia Military
Institute Research Laboratories (VMIRL) resulted in failure to identify a material
noncompliance with Recovery Act reporting requirements. VMIRL expended
nearly $335,000 on an NSF ARRA award. In the single audit at Drilling,




14 September 2010 Semiannual Report, p.14.


                                                                                      29

Audits & Reviews


                   Observation and Sampling of the Earth’s Continental Crust (DOSECC), audit
                   quality deficiencies resulted in the failure to identify a misstatement material to
                   the Schedule of Expenditures of Federal Awards. DOSECC had expenditures
                   of more than $560,000 in NSF direct funding.

                   Our follow-up review of the VMIRL audit found that it met applicable Federal
                   requirements. The auditors are currently conducting additional testing at DO­
                   SECC; we plan to conduct a follow-up review during the next semiannual period.




             30

                               OIG Management Activities
OUTREACH

Outreach is a productive tool in accomplishing our mission to pre-
vent and detect fraud, waste, and abuse and to promote economy,
efficiency, and effectiveness in NSF programs and operations.
We undertake numerous proactive activities, including educating
NSF awardees about fraud recognition and prevention, research
misconduct and responsible conduct of research, and their financial
and programmatic responsibilities.

Continuing to respond to Congressional concerns regarding the
prevention and detection of fraud in Small Business Innovation
Research / Small Business Technology Transfer (SBIR/STTR)
Programs, the Inspector General is leading the SBIR working
group, under the auspices of the Council of Inspectors General
on Integrity and Efficiency (CIGIE) Research Misconduct Working
Group. In June, the Working Group conducted a government-wide
workshop focused on initiatives to help ensure integrity, improve
oversight, and enhance fraud prevention in these programs. The
workshop was attended by over 130 individuals from 25 federal
agencies, congressional staff, and representatives from the Recov-
ery Accountability and Transparency Board (RATB).

In addition, the Inspector General leads a Suspension and Debar-
ment (S&D) Working Group with the Federal Housing Finance
Agency IG, under the auspices of the CIGIE Investigations Commit-
tee. This group, which consists of representatives from the RATB
and thirteen OIGs, is focused on increasing knowledge and use
of S&D to protect government funds against fraud. In the past six
months, the group reported the results of two surveys, one of the
IG community and one of agency S&D officials, and is exploring
options about ways to enhance the use of S&D in Recovery Act
awards and other awards impacted by significant wrongdoing.

The Inspector General addressed several organizations on issues
such as science and public policy, research misconduct, and
the role of inspectors general. Presentations at the International
Workshop on Accountability in Science and Research focused
on identifying and managing fraud risk from the perspective of a
research funding and using technology to prevent and detect fraud.

The Assistant Inspector General for Investigations (AIGI) and the
Assistant Inspector General for Audit (AIGA) also participated in
outreach efforts such as presentations on the more effective use of      HIGHLIGHTS
S&D to combat fraud against the government, training for audit peer
review standards, efforts to establish peer review for investigations    Outreach.......................... 31
among the Designated Federal Entity Offices of Inspector General,
grant oversight, and research misconduct.
                                                                        31
Management Activities


                        The AIGI shared her experience and insights with the Association of Directors
                        of Investigations on how S&D can be more effectively employed to combat
                        fraud against the federal government. She also provided a lecture on research
                        integrity to the Research Ethics Symposium. The AIGA is leading the RATB’s
                        working group on grant fraud indicators and chairs the Federal Audit Executive
                        Council under the auspices of CIGIE, which sponsored a conference attended
                        by more than 160 auditors and others from 56 federal agencies.

                        Our extensive experience in investigating grant fraud and research misconduct
                        matters is well recognized in the community, and we continue to receive
                        numerous requests from universities and others in the research community to
                        provide assistance and training on the prevention, detection, and investigation
                        of research misconduct. Among other things, we conducted research miscon­
                        duct briefings at six universities, participated in a curriculum review for fraud
                        courses provided at the Federal Law Enforcement Training Center (FLETC), and
                        provided instructors to FLETC for grant fraud related courses. These activities
                        demonstrate our commitment to maintain a robust outreach program to the
                        greatest degree possible under current fiscal restraints.


                         As reported in our March 2011 semiannual, NSF OIG investigation closeout memo­
                         randa, describing the nature of our investigations and whether they resulted in
                         administrative, civil, or criminal action, are publicly available on our website at:
                         www.nsf.gov/oig/closeouts.jsp. The memoranda are organized into searchable cate­
                         gories such as grant fraud, contractor fraud, computer intrusion, and PI misconduct.
                         We have recorded over 15,000 hits, about 2500 hits per month, since this online
                         access was made available. The public release of the closeout memoranda makes
                         our work more transparent, and reduces our need to respond to requests under the
                         Freedom of Information Act for these documents.




                 32

                                                     Statistical Data
                           Audit Data
     Audit Reports Issued with Recommendations
               for Better Use of Funds

                                                     Dollar Value
A.    For which no management decision has been      $150,523,383
      made by the commencement of the reporting
      period
B.    Recommendations that were issued during the     $75,780,354
      reporting period
C.    Adjustments related to prior recommendations             $0
Subtotal of A+B+C                                    $226,303,737
D.    For which a management decision was made            $65,632
      during the reporting period
      i)    Dollar value of management decisions               $0
            that were consistent with OIG
            recommendations
      ii)   Dollar value of recommendations that          $65,632
            were not agreed to by management
E.    For which no management decision had been      $226,238,105
      made by the end of the reporting period
For which no management decision was made within     $150,457,751
6 months of issuance




                                                                    33
Statistical Data



                              Audit Reports Issued with Questioned Costs

                                                                Number of              Questioned           Unsupported Costs
                                                                 Reports                 Costs
  A.    For which no management decision has                          39              $45,789,446                $5,996,712
        been made by the commencement of
        the reporting period*
  B.    That were issued during the reporting                         22               $1,546,659                $1,327,436
        period
  C.    Adjustment related to prior                                   2                -$56,895**                -$53,882**
        recommendations
  Subtotal of A+B+C                                                                   $47,279,210                $7,270,266
  D.    For which a management decision was                           24             $17,031,706***               $1,241,171
        made during the reporting period
        dollar value of disallowed costs                             N/A              $11,003,474                     N/A
        dollar value of costs not disallowed                         N/A              $6,028,232                      N/A
  E.    For which no management decision had                          37              $30,247,504                $6,029,095
        been made by the end of the reporting
        period
  For which no management decision was                                17              $28,704,598                $4,701,659
  made within 6 months of issuance




*The 39 reports include four that were on hold at the request of OIG. These reports are:


Report No.                     Questioned Costs                           Unsupported Costs
09-5-048                       $110,629                                   $0
10-4-012                       $791                                       $776
10-4-100                       $1,881                                     $0
11-5-102                       $40,000                                    $40,000

**There are prior period adjustments on two A-133 audit reports: Report No. 09-5-052 is reduced by $17,415 for both questioned
costs and unsupported costs; Report No. 10-5-016 is reduced by $39,480 for questioned costs and $36,467 for unsupported costs.

***This total includes the amount that is included in the Investigative Tables on page 41 and described in the Investigative case
writes-ups on page 7.



             34

                                                                            OIG Semiannual Report           September 2011



  Status of Recommendations that Involve Internal NSF Management Operations

 Open Recommendations (as of 03/31/11)
  Recommendations Open at the Beginning of the Reporting Period                                            50
  New Recommendations Made During Reporting Period                                                          4
  Total Recommendations to be Addressed                                                                    54
 Management Resolution of Recommendations1
  Awaiting Resolution                                                                                      12
  Resolved Consistent With OIG Recommendations                                                             42
  Management Decision That No Action is Required                                                            0
 Final Action on OIG Recommendations            2


  Final Action Completed                                                                                    2
 Recommendations Open at End of Period                                                                     52



                                    Aging of Open Recommendations

 Awaiting Management Resolution:
  0 through 6 months                                                                                        4
  7 through 12 months                                                                                       8
  More than 12 months                                                                                       0
 Awaiting Final Action After Resolution
  0 through 6 months                                                                                        0
  7 through 12 months                                                                                      15
  More than 12 months                                                                                      25




1 “Management Resolution” occurs when the OIG and NSF management agree on the corrective action plan that will be imple­
mented in response to the audit recommendations.
2 “Final Action” occurs when management has completed all actions it agreed to in the corrective action plan.


                                                                                                            35
Statistical Data




                                              List of Reports

                                    NSF and CPA-Performed Reviews

   Report                       Subject                  Questioned    Unsupported    Better Use of
   Number                                                  Costs          Costs          Funds
  11-1-017         ARRA Capability UAA – University         $78,093             $0                $0
                   of Alaska
  11-1-018         EDJ Associates                                $0             $0                $0
  11-1-020         Cold Spring Harbor Laboratory                 $0             $0                $0
  11-1-021         NEON National Ecological                      $0             $0      $75,780,354
                   Observatory Network
  11-1-023         Field Museum of Natural                  $123,663       $123,663               $0
                   History – IL
  11-1-024         AUI Review of Accounting System               $0             $0                $0
  11-2-008         NSF’s Priority Performance Goal               $0             $0                $0
                   Process
  11-2-009         COI Senator Grassley Request                  $0             $0                $0
                   Conflict of Interest
  11-6-001         QCR of 12-07 DOSECC Drilling                  $0             $0                $0
                   Observation & Sampling of Earth’s
                   Continental Crust
  11-6-003         ARRA QCR of Raetz & Hawkin’s                  $0             $0                $0
                   2010 A-133 Audit of VMI Research
                   Laboratories
  11-6-006         ASC Antarctic Support Contract                $0             $0                $0
                   Total:                                   $201,756       $123,663     $75,780,354

The Office issued 11 reports this semiannual period.
	




             36

                                                            OIG Semiannual Report    September 2011



                                  NSF-Cognizant Reports

 Report                           Subject                          Questioned       Unsupported
 Number                                                              Costs             Costs
11-4-069   9-10 Fermi Research Alliance LLC                                  $0                $0
11-4-070   12-09 Institute of Learning Innovation – MD                  $12,624                $0
11-4-071   9-10 Museum of Science and Industry, Inc.                         $0                $0
11-4-072   9-10 REJECTED Museum of Science, Inc. d/b/a                       $0                $0
           Miami Science Museum – FL
11-4-074   NEES Consortium, Inc. – CA                                        $0                $0
11-4-075   9-10 Northern California Public Broadcasting – CA                 $0                $0
11-4-077   6-10 QEMN Quality Education for Minorities – DC                   $0                $0
11-4-080   6-10 Computing Research Association, Inc. – DC                    $0                $0
11-4-082   9-10 Virtual Astronomical Observatory LLC – DC                    $0                $0
11-4-083   12-07 World Technology Evaluation Center, Inc. – PA         $244,982           $155,765
11-4-084   6-10 Michigan State University                                    $0                $0
11-4-086   6-10 Institute for Advanced Study – NJ                            $0                $0
11-4-087   8-10 Association of American Geographers – DC                     $0                $0
11-4-088   6-10 CORD, Inc. – TX                                              $0                $0
11-4-089   12-10 REJECTED EERI Earthquake Engineering                        $0                $0
           Research Institute – CA
11-4-090   9-10 New England Wild Flower Society, Inc. – MA                   $0                $0
11-4-091   9-10 The Algebra Project – MA                                     $0                $0
11-4-092   12-10 American Physical Society – MD                              $0                $0
11-4-093   6-10 Museum of Science – MA                                       $0                $0
11-4-094   8-10 San Jose Children’s Discovery Museum – CA                    $0                $0
11-4-095   12-10 SCOR Scientific Committee on Ocean                          $0                $0
           Research – DE
11-4-096   6-10 Ecological Society of America – DC                           $0                $0
11-4-097   6-10 New York Botanical Garden – NY                               $0                $0
11-4-098   6-10 Island Institute – ME                                        $0                $0
11-4-099   9-10 LSST, Inc. – AZ                                              $0                $0
11-4-100   9-10 Concord Consortium, Inc. – MA                                $0                $0
11-4-101   12-10 American Statistical Association – VA                       $0                $0
11-4-102   12-10 Hopa Mountain Foundation – MT                               $0                $0
11-4-103   12-10 Missouri Botanical Garden – MO                              $0                $0
11-4-104   6-10 WNET.ORG / Educational Broadcasting                          $0                $0
           Corporation – NY
11-4-105   9-10 California Institute of Technology – CA                      $0                $0
11-4-106   9-10 REVISED Museum of Science, Inc.                              $0                $0
           d/b/a Miami Science Museum – FL
11-4-107   12-10 Seattle Aquarium Society – WA                               $0                $0



                                                                                     37
Statistical Data


  11-4-108         12-10 REVISED EERI Earthquake Engineering                      $0         $0
                   Research Institute – CA
  11-4-109         6-10 MPC Corporation – PA                                      $0         $0
  11-4-110         12-10 Association for Institutional Research, Inc. – FL        $0         $0
  11-4-111         9-10 Chabot Space & Science Center – CA                        $0         $0
  11-4-112         6-10 Soundvision Productions – CA                              $0         $0
  11-4-113         12-10 Samuel Roberts Noble Foundation – OK                     $0         $0
  11-4-114         12-10 Santa Fe Institute – NM                                  $0         $0
  11-4-115         9-10 COL Consortium for Ocean Leadership                       $0         $0
  11-4-116         6-10 New York Hall of Science – NY                             $0         $0
  11-4-117         12-10 American Geophysical Union – DC                          $0         $0
  11-4-118         12-10 ICSI International Computer Science                      $0         $0
                   Institute – CA
  11-4-119         12-10 AAAS American Association for the Advance­               $0         $0
                   ment of Science – DC
  11-4-120         12-10 American Sociological Association – DC                   $0         $0
  11-4-121         12-10 Marine Biological Laboratory – MA                        $0         $0
  11-4-122         12-10 Mobile Area Education Foundation, Inc. – AL              $0         $0
  11-4-123         12-10 TERC Technical Education Research Centers,               $0         $0
                   Inc. – MA
  11-4-124         12-10 BIOS Bermuda Institute of Ocean Sciences,                $0         $0
                   Inc. – NY
  11-4-125         12-10 Field Museum of Natural History – IL                     $0         $0
  11-4-126         9-10 Northwest Association for Biomedical                      $0         $0
                   Research – WA
  11-4-127         9-10 TMT Observatory Corporation – CA                          $0         $0
  11-4-128         9-10 AURA Association of Universities for Research             $0         $0
                   in Astronomy, Inc. – DC
  11-4-129         12-10 Association of Public and Land-Grant                     $0         $0
                   Universities – DC
  11-4-130         12-10 American Mathematical Society – RI                       $0         $0
  11-4-131         12-10 Horizon Research, Inc. – NC                              $0         $0
  11-4-132         12-10 Academy of Natural Sciences of                           $0         $0
                   Philadelphia – PA
  11-4-133         12-10 The Franklin Institute – PA                              $0         $0
  11-4-134         6-10 REVISED VMI Research Laboratories – VA                    $0         $0
  11-4-135         9-10 IMI IODP Management International – DC                    $0         $0
  11-4-136         12-10 Industrial Research Institute, Inc. – VA            $654,171   $654,171
  11-4-137         12-10 American Educational Research                            $0         $0
                   Association – DC
  11-4-138         12-10 Denver Museum of Nature and Science – CO                 $0         $0
  11-4-139         12-10 Institute for Broadening Participation – ME              $0         $0
  11-4-140         12-10 Botanical Research Institute of Texas, Inc.              $0         $0




             38
                                                              OIG Semiannual Report    September 2011


11-4-141   3-11 Association of Science-Technology                              $0                 $0
           Centers – DC
11-4-142   12-10 Center for Severe Weather Research – CO                       $0                 $0
11-4-143   12-10 Consortium of Universities for Research in                    $0                 $0
           Earthquake Engineering – CA
11-4-144   7-10 Mathematical Sciences Research Institute – CA                  $0                 $0
11-4-145   12-10 Mathematical Association of America – DC                      $0                 $0
11-4-146   12-10 UNAVCO, Inc. – CO                                             $0                 $0
11-4-147   12-10 Institute for Learning Innovation – MD                        $0                 $0
           Total:                                                        $911,777            $809,936



                                     Other Federal Reports

 Report                             Subject                          Questioned       Unsupported
 Number                                                                Costs             Costs
11-5-106   6-10 Bentley University – MA                                  $119,873            $119,873
11-5-111   6-10 Polytechnic Institute of New York                          $3,683                 $0
           University – NY
11-5-118   6-10 Jarvis Christian College – TX                              $3,851              $3,851
11-5-131   6-10 Bates College – ME                                            $70                 $0
11-5-144   6-10 Hampshire College – MA                                    $89,567             $89,567
11-5-145   6-10 Miles College – AL                                        $30,059                 $0
11-5-154   6-10 University of Illinois                                    $57,350             $57,350
11-5-157   6-10 Saint Louis University – MO                                $2,573                 $0
11-5-160   6-10 Fisk University – TN                                       $2,042                 $0
11-5-161   6-10 University of Maine System                                $29,868             $29,868
11-5-164   9-09 Fort Berthold Community College – ND                       $9,918              $9,386
11-5-167   8-10 Stanford University – CA                                      $45                $45
11-5-171   9-10 Stone Child College – MT                                  $12,400             $12,400
11-5-174   9-10 Smithsonian Institution – DC                                 $330                 $0
11-5-179   6-10 College of the Menominee Nation – WI                      $12,034             $12,034
11-5-182   5-10 Navajo Technical College – NM                             $58,279             $58,279
11-5-185   5-11 Skidmore College – NY                                       $1,184             $1,184
           Total:                                                        $433,126            $393,837




                                                                                       39

Statistical Data



                    Audit Reports With Outstanding Management Decisions

This section identifies audit reports involving questioned costs, unsupported costs, and funds
put to better use, where management had not made a final decision on the corrective action
necessary for report resolution with six months of the report’s issue date. At the end of the
reporting period there were 19 reports remaining that met this condition. The status of recom­
mendations that involve internal NSF management is described on page 35.

    Report                           Subject               Questioned     Unsupported     Better Use
    Number                                                   Costs           Costs         of Funds
  05-1-005          RPSC Costs Claimed FY2000 to            $12,334,824             $0             $0
                    2002
  06-1-023          RPSC 2003/2004 Raytheon Polar           $6,860,500              $0             $0
                    Services
  07-1-003          Triumph Tech, Inc.                         $80,740           $1,192            $0
  07-1-019          ABt Associates                             $22,716              $0             $0
  09-1-011          Wisconsin Ice Core Drilling Services     $2,475,308        $27,308             $0
  09-1-014          University of Michigan                   $1,604,713      $1,418,889            $0
  09-5-048          8-07 College of the Mainland – TX *       $110,629              $0             $0
  10-1-001          SUNY at Stony Brook Effort                 $23,656              $0             $0
                    Reporting
  10-1-008          University of Delaware Effort              $34,299              $0             $0
                    Reporting
  10-1-012          COL OOI Proposed Budget                         $0              $0    $88,184,480
  10-1-014          JOI 20 Month Incurred Cost                $392,309        $324,500             $0
  10-1-015          COL 4 Month Incurred Cost                 $195,937         $80,000             $0
  10-5-132          6-09 Howard University – DC               $144,209        $136,273             $0
  11-1-001          REVISED ATST Price Proposal                     $0              $0    $62,338,903
  11-1-009          Ohio State University Research           $1,736,068       $490,129             $0
                    Foundation
  11-1-012          Trustees of Boston University             $412,400         $47,486             $0
  11-1-011          NCCU Internal Control Review              $351,340        $268,628             $0
  11-1-013          Louisiana Board of Regents               $1,884,950      $1,867,254            $0
  11-5-102          8-10 State of Texas *                      $40,000         $40,000             $0
                    Total:                                 $28,704,598       $4,701,659   $150,457,751

*This report was on hold at the request of OIG.




             40

                                                                                 OIG Semiannual Report             September 2011


                                           INVESTIGATIONS DATA

                                     (April 1, 2011 – September 30, 2011)


                                    Civil/Criminal Investigative Activities


Referrals to Prosecutors                                               5
Criminal Convictions/Pleas                                             6
Arrests                                                                3
Civil Settlements                                                      2
Indictments/Information                                                1
Investigative Recoveries                                               $2,088,854.56
Investigative Recoveries1                                              $10,814,595.00



                                   Administrative Investigative Activities

Referrals to NSF Management for Action                                 25
Research Misconduct Findings                                           7
Debarments                                                             6
Administrative Actions                                                 46
Certifications and Assurances Received2                                32



                                           Investigative Case Statistics

                                                   Preliminary         Civil/Criminal       Administrative

Active at Beginning of Period                                46                  83                   82
Opened                                                       98                  26                   43
Closed                                                       83                  18                   32
Active at End of Period                                      61                  91                   93



                      Freedom of Information Act and Privacy Act Requests

Our office responds to requests for information contained in our files under the freedom of Information
Act (“FOIA,” 5 U.S.C. § 552) and the Privacy Act (5 U.S.C. § 552a). During this reporting period:

•    Requests Received                                       53
•    Requests Processed                                      56
•    Appeals Received                                        1
•    Appeals Upheld                                          1

Response time ranged between 3 days and 20 days, with the median around 15 days and the average
around 14 days.




1 See write-up on page 7.
2 NSF accompanies some actions with a certification and/or assurance requirement. For example, for a specified period, the
subject may be required to confidentially submit to OIG a personal certification and/or institutional assurance that any newly
submitted NSF proposal does not contain anything that violates NSF regulations.


                                                                                                                   41
Statistical Data




             42
                                                     Appendix
                     Acronyms
AD       NSF Assistant Director
AIG      Associate Inspector General
ARRA     American Recovery and Reinvestment
CAREER   Faculty Early Career Development Program
CAS      Cost Accounting Standards
CBA      Collective Bargaining Agreement
CIGIE    Council of Inspectors General on Integrity and
         Efficiency
CISE     Computer and Information Science and Engineering
         Directorate
COI      Conflict of Interest
COV      Committee of Visitors
DACS     Division of Acquisition and Cost Support
DCAA     Defense Contract Audit Agency
DD       Deputy Director
DGA      Division of Grants and Agreements
DIAS     Division of Institution and Award Support
DoD      Department of Defense
DoE      Department of Energy
DoJ      Department of Justice
ECIE     Executive Council of Integrity and Efficiency
EPSCoR   Experimental Program to Stimulate Competitive
         Research
FFRDC    Federally Funded Research and Development Centers
FISMA    Federal Information Security Management Act
GAO      Government Accountability Office
GAS      Government Auditing Standards
GPRA     Government Performance and Results Act
HHS      Department of Health and Human Services
IG       Inspector General
MIRWG    Misconduct in Research Working Group
MREFC    Major Research Equipment and Facilities Construction
NIH      National Institute of Health
NSB      National Science Board
NSF      National Science Foundation
OEOP     Office of Equal Opportunity Programs
OIG      Office of Inspector General
OMB      Office of Management and Budget
OPP      Office of Polar Programs
OPM      Office of Personnel Management
PCIE     President’s Council on Integrity and Efficiency
PI       Principal Investigator
PFCRA    Program Fraud Civil Remedies Act
RCR      Responsible Conduct of Research
SBIR     Small Business Innovation Research
STC      Science and Technology Centers
USAP     United States Antarctic Program

                                                                43
[Blank Page]
                                            FY 2012 Top
                                       Management Challenges
CHALLENGE: Ensuring Proper Stewardship of
ARRA Funds
Overview: The American Recovery and Reinvestment Act (ARRA)
provided $3 billion for the National Science Foundation (NSF) as an
investment in research that would produce economic benefits and
growth over time. NSF staff worked diligently to obligate over 4000
awards during 2009, and the last of the ARRA funds were obligated
by September 2010. NSF awardees have registered a 99.8 percent
compliance rate with ARRA reporting requirements.

As of the end of FY 2011, just $1.38 billion of NSF’s ARRA funds
have been expended, the lowest spending rate (or “burn rate”)
among federal agencies. On September 15, 2011 OMB issued
a memorandum to the heads of federal agencies urging them to
spend remaining Recovery funds, and to recapture discretionary
grant funds not spent by the end of FY 2013 “to the fullest extent of
the law”. There are 638 NSF ARRA awards that will not expire until
after FY2013.

Challenge for the Agency: The challenge for the agency is: 1)
to assure that ARRA funds are not subject to fraud, waste and
abuse, 2) to evaluate its award portfolio and identify and reach
out to those awardees that are able to accelerate spending within
the next two years, and 3) to monitor ARRA awards to assure that
grantees continue to fulfill their reporting responsibilities. As ARRA
awardees spend down their funds, NSF program managers and
administrative staff must be alert to indications of fraud, waste and
abuse and intervene when appropriate. In tough economic times
such as these, they should also be sensitive to the appearance of
impropriety or waste, even if rules are not explicitly broken.

In addition, NSF must make a serious effort to press ARRA award
recipients to accelerate their spending in support of the U.S.
economy, which was one of the primary purposes of the Recovery
Act. ARRA funds were intended to provide an immediate stimulus
to the economy, and a significant number of NSF’s ARRA awards
will not expire until after 2013. The agency should take all actions
necessary to ensure that those funds are spent as prudently and
quickly as possible. Finally, NSF must continue to promote the
timely and accurate reporting of financial information by ARRA
recipients. A series of OIG reports issued during March 2011
reviewed the reporting practices of seven ARRA recipients and
found that smaller awardees lack a clear understanding of the
requirements, and thus pose an increased risk of non-compliance.
NSF must continue to inform and monitor ARRA awardees about
their obligations under the Act.

                                                                         45
Management Activities


                        OIG’s Assessment of the Agency’s Progress: The agency has worked
                        cooperatively with OIG to identify potential occurrences of fraud, waste and
                        abuse associated with ARRA funds. Regarding the low spending rate of ARRA
                        recipients, NSF states that it is consistent with the expectations that surround
                        academic research and its pattern of spending. The agency continues to
                        actively monitor recipient reporting and the spending of grantees. It has en­
                        forced its burn rate condition requiring recipients to expend ARRA funds within
                        one year, and implemented report review logic to catch under or over reporting
                        of jobs created by ARRA.


                        CHALLENGE: Improving Grant Administration
                        Overview: In 2010, NSF funded more than 55,000 active awards involving
                        over 2,100 institutions. In light of the fact that most of those awards are made
                        as grants, it is essential that the Foundation’s grants management processes
                        be robust enough to ensure the highest level of accountability and stewardship
                        in its external awards portfolio. In particular, those processes should enable the
                        agency to engage in effective oversight throughout the lifecycle of an award.

                        Challenge for the Agency: Previous OIG audits of NSF’s operations have
                        found that the Foundation needs to improve its oversight of awardees’ financial
                        accountability, programmatic performance, and compliance with applicable fed­
                        eral and NSF requirements. NSF’s Award Monitoring and Business Assistance
                        Program (AMBAP) was designed to provide advanced monitoring activities to
                        ensure that awardee institutions possess adequate policies, processes, and
                        systems to manage their NSF awards.

                        In FY 2011, NSF performed 26 of the 30 AMBAP planned site visits. NSF
                        has indicated that it was unable to undertake all planned visits due to staffing
                        constraints. Performing the AMBAP site visits is resource intensive as it
                        requires an experienced grant officer to travel to the institution, spend several
                        days on-site, prepare the report, and follow-up on any corrective actions. As
                        continuing budget restrictions are anticipated, it will be an ongoing challenge for
                        NSF to maintain adequate oversight.

                        Our December 2009 audit of the process for resolving audit recommendations
                        directed at NSF grantees and for following up to ensure that corrective actions
                        are implemented, made several recommendations for improvement. A robust
                        audit resolution process is critical to ensure that institutions receiving funds
                        from NSF take the necessary corrective action to properly manage those funds.

                        In addition, it is important for NSF to ensure that awardees are providing suf­
                        ficient oversight of sub-recipients. Our audits continue to find problems in sub
                        recipient monitoring such as inadequately supported and unallowable costs.
                        We have recommended that NSF expand and improve its sub-award monitoring
                        procedures.

                        OIG’s Assessment of the Agency’s Progress: In its progress report on the
                        2011 management challenges, NSF reported that it had taken several actions
                        to strengthen grants management including modifying the AMBAP risk assess­


                 46

                                                             OIG Semiannual Report   September 2011


ment based on analysis of prior findings, focusing attention on institutions that
have the least experience in managing federal funds, and conducting outreach
to improve compliance.

In response to our audit of the audit resolution process, OIG and NSF formed
a working group which developed a new audit resolution process to create
more effective stewardship over federal funds awarded by NSF. A joint NSF/
OIG work group, the Stewardship Collaborative, continues to work to monitor
and improve the audit resolution process and to jointly address outstanding and
emerging issues.


CHALLENGE: Strengthening Contract Administration
Overview: For two consecutive years, the monitoring of cost reimbursement
contracts has been cited as a significant deficiency during NSF’s annual
financial statement audit. Cost reimbursement contracts are inherently risky
because the government shares the risk that poor performance on the part
of the contractor will result in cost overruns. In FY 2011, NSF obligated $447
million for all contracts. Of that amount, $315 million were for cost reimburse­
ment contracts, including $232 million in advance payments issued before work
was done.

The FY 2010 financial statement audit report presented seven recommenda­
tions for strengthening NSF’s contract monitoring practices, cautioning the
agency that more attention must be paid to the basic tools of the trade such
as incurred cost audits, cost disclosure statements, and cost submissions
that are used to check the contractor’s compliance with contract terms and
federal regulations. Contracting weaknesses have come to light as the agency
prepares to award its largest contract, which will provide logistical support to
the U.S. Antarctic Program over the course of a decade. Following several
delays in the procurement process, the award is expected to be completed by
mid-November 2011.

Challenge for the Agency: NSF’s challenge is to correct the deficiencies in
contract administration that have been identified by NSF’s financial statement
audit, and to continue to improve the effectiveness of its policies, practices and
contracting professionals. The agency is still in the process of obtaining audits
of millions of dollars in costs incurred from 2005 – 2010 by the current USAP
contractor, a process that was delayed because the USAP contractor did not
have an approved cost disclosure statement. There is no assurance that the
agency does not overpay for these services without incurred cost audits and
approved cost disclosure statements. As a matter of policy, NSF should obtain
disclosure statements and incurred cost audits of its largest contracts on a
regular basis and promptly resolve any questioned costs that arise.

Corrective actions aimed at strengthening the weaknesses cited by the financial
auditors should be implemented as soon as possible. Much can be ac­
complished without additional resources, but NSF has requested 11 additional




                                                                                     47

Management Activities


                        staff in its past two budget requests to form an acquisition support team for
                        contracts. In light of the current budget environment, NSF should consider
                        other alternatives besides adding staff in order to address this challenge.

                        OIG’s Assessment of the Agency’s Progress: NSF has made progress
                        toward improving its administration of contracts. The agency now requires its
                        contract specialists to ensure that vendors have disclosure statements prior
                        to making awards. In addition, over the past year NSF successfully resolved
                        questioned costs related to the USAP contractor and recovered $10.8 million.
                        It has also fully funded DCAA’s costs to complete the 2005 thru 2010 incurred
                        cost audits associated with the contract. However, the audits are still in prog­
                        ress, and it is uncertain as to when they will be concluded.


                        CHALLENGE: Implementing Improvements in Workforce
                        Management and the Workplace Environment
                        Overview: World-class executive leadership and effective human capital
                        management are essential to NSF’s success as a high-performing organiza­
                        tion. Thus, the agency’s executives must demonstrate outstanding administra­
                        tive and leadership skills as well as possess exceptional scientific knowledge
                        and expertise for the agency to achieve its fullest potential. To strengthen
                        NSF’s ties with the research community and provide the agency with talent,
                        resources, and cutting-edge research and scientific expertise, NSF relies on a
                        variety of non-permanent staff. In 2010, approximately 26 percent of all NSF
                        employees were in some type of non-permanent status, and 20 of the agency’s
                        75 executive level staff came to NSF from academic and non-profit institutions
                        pursuant to the Intergovernmental Personnel Act (IPA). IPAs generally have
                        not worked in the federal government and therefore, are often not familiar with
                        government rules and administrative processes in the federal workplace.

                        Challenge for the Agency. The Office of Personnel Management, Con­
                        gress, and the OIG, as well as NSF management and staff, have expressed
                        concerns about workforce management and the workplace environment at
                        NSF. Addressing workforce and workplace challenges requires sustained
                        management attention and commitment from the Director. NSF’s response to
                        these concerns generally has been to assemble working groups of NSF staff to
                        assess the issues and recommend corrective action. These groups have given
                        thorough attention to these issues and made more than 100 recommendations
                        for change. However, NSF does not have an effective, structured process
                        for implementing the workforce management changes called for in these
                        recommendations. The workforce management change process also suffers
                        because it lacks a permanent champion with both the time and authority to lead
                        in this area.

                        The fact that senior leadership positions including the Director for the Office of
                        Information and Resource Management, the Chief Human Capital Officer, and
                        the Director for Human Resource Management were filled for much of 2011
                        with individuals serving in a temporary or interim status presents an additional
                        challenge to implementation of workforce management improvements.



                 48

                                                              OIG Semiannual Report   September 2011


NSF also faces ongoing challenges in effectively preparing and integrating
its rotating executives into the federal government workplace. The temporary
nature of NSF’s rotator model creates additional challenges to ensure that new
executives have the full set of skills (scientific, administrative, and leadership)
necessary to lead the agency.

OIG’s Assessment of Agency Progress: NSF has taken several steps to
address workforce management and workplace environment challenges. For
example, NSF now includes IPAs in the performance management system
and plans to issue performance appraisals for IPAs in executive level positions
in fall 2011. The agency has promulgated a mandatory management training
policy for new managers and executives and has developed and actively pro­
motes new leadership and management training programs. NSF also reported
that it has addressed 38 recommendations for workforce improvement and that
work on an additional 10 recommendations is underway. Despite this progress,
critical human resource leadership positions remain filled with individuals acting
in a temporary or interim capacity. Finally, permanent leadership for these
critical positions should be a high priority for the agency.


CHALLENGE: Encouraging Ethical Conduct of Research
Overview: In 2007, Congress passed the America COMPETES Act to invest in
innovation through research and development, and to improve the competitive­
ness of the United States. Among other things, the Act mandates new proposal
requirements for NSF, such as mentoring plans for all postdoctoral positions,
and plans to provide training on the responsible conduct of research to
undergraduates, graduate students, and postdoctoral researchers. Information
gleaned from site visits and through investigations suggests that many institu­
tions are not taking these requirements seriously, thereby placing NSF funds at
risk. Integrity is the keystone of the scientific process and product. Without it,
precious research funds are wasted both by unprincipled researchers as well
as by those researchers whose time, effort, and funds are wasted when they
try to replicate the work of their unprincipled colleagues. NSF is challenged to
provide more oversight on institution implementation of these requirements and
to provide meaningful guidance regarding Responsible Conduct of Research
(RCR) training.

Challenge for the Agency: NSF’s primary challenge is to ensure that award­
ees implement credible RCR programs, thereby creating a top-down culture of
academic integrity that extends to all levels of the university. Affirmative steps
are necessary to counter the trends of increasing integrity violations. Recent
surveys suggest that 75% of high school students and 50% of college students
admit to cheating, and 30% of researchers admit to questionable research
practices. The science and engineering workforce is an increasing percent­
age of the overall workforce, but only 10% hold PhD’s. The NSF Act places
responsibility on NSF to “strengthen scientific [and engineering] research
potential at all levels in... various fields.” NSF’s research and training programs
reach individuals who ultimately are employed by academia, industry, and




                                                                                      49

Management Activities


                        government. Its broad effect on the US science, engineering and education
                        workforce means that NSF must act to ensure clear understanding of research
                        tenets for all those receiving the benefits of its funds.

                        Our investigations are consistent with the survey results mentioned above.
                        OIG has seen a dramatic increase in the substantive allegations of plagiarism
                        and data fabrication, especially as it relates to junior faculty members and
                        graduate students. Over the past 10 years, the number of allegations received
                        by our office has more than tripled, as has the number of findings of research
                        misconduct NSF has made based on OIG investigation reports. Although
                        NSF’s response to our research misconduct investigation reports is commend­
                        ably strong, those actions only address incidents after the fact. Extrapolating
                        the number of allegations OIG has received across the 45,000 proposals NSF
                        receives annually, suggests 1300 proposals could contain plagiarism and
                        450-900 proposals could contain problematic data. Given that NSF funds
                        research in virtually every non-medical research discipline, it is in a unique
                        position to lead the government response to addressing these disturbing trends
                        at all levels of education.

                        OIG’s Assessment of the Agency’s Progress: The agency responded to
                        the America COMPETES Act by instituting a requirement that grantees submit
                        mentoring plans for all NSF-supported postdocs and have an RCR training
                        plan for NSF-funded students. The NSF guidance was very limited and offered
                        great flexibility to grantee institutions to develop plans tailored to their needs.
                        OIG has seen grantee RCR programs ranging from high quality mentoring
                        programs to those that simply refer students to web-based or computer-based
                        training. In one instance, a large institution was proud to have trained the two
                        students who were strictly required by NSF policy to be trained (this was an
                        institution of more than 50,000 students). Early intervention is critical to ensur­
                        ing that students understand proper professional practices and the implications
                        of misconduct. Based on what we have seen, NSF should expand its influence
                        in this arena.

                        Research is also an increasingly global enterprise. Addressing integrity issues
                        and training in domestic efforts is not sufficient to ensure the integrity of NSF
                        funded activities. OIG’s review of the Basic Research to Enable Agricultural
                        Development (BREAD) program proposals and awards highlighted a significant
                        failure of the US PIs to collaboratively develop oversight programs with foreign
                        subawardees. The absence of such collaboration resulted in the submission
                        of proposals and the awarding of grants that contained plans applicable to only
                        domestic awards. The most poorly developed aspect of these plans was in the
                        responsible conduct of research training and research misconduct reporting.
                        Based on our report NSF took two actions. The agency modified its subse­
                        quent solicitation to include more details about the expectations for oversight
                        plans; and it encouraged the development of comprehensive oversight plans
                        in collaboration with the international subawardees. Unfortunately, our recent
                        review of annual reports demonstrates little significant improvement in the
                        oversight plans, a result that is distressing. In considering how it will effectively
                        address this challenge NSF should ensure that annual reports and future
                        proposals comprehensively address oversight plans.



                 50

                                                             OIG Semiannual Report   September 2011


CHALLENGE: Effectively Managing Large Facilities and
Instruments
Overview: Due to their inherent financial and operational risks, managing
the design, construction and operation of NSF’s large science infrastructure
projects has appeared on OIG’s list of management challenges for the past
decade. When the agency decides to construct a telescope, earthquake
simulator, or other scientific tool, it generally enters into a cooperative agree­
ment with an institution to design, build and manage the facility. NSF received
$117 million for its Major Research Equipment and Facilities Construction
account for FY 2011 and $400 million in Recovery Act funds in FY 2009 for the
construction of three major facilities that are currently under development. The
agency has made steady progress towards improving its project management
capability since 2003, when NSF first appointed a Deputy Director for Large
Facilities. However, according to three recent audits conducted by DCAA for
the OIG, costs for contingency provisions contained in each of the contracts are
unallowable.

Challenge for the Agency: NSF needs to ensure that the process it is using
for developing, managing, and accounting for contingency funds is sound. In
September 2011, OIG issued an audit report of a proposal to build the National
Ecological Observatory Network. It found that the bid included $76 million in
unallowable contingency costs. Earlier in 2011, an audit of the proposal to build
the Advanced Technology Solar Telescope questioned 21 percent of the cost,
or $62 million, that was reserved for contingencies. The two audits questioned
those costs on the basis that setting aside contingent funds for events that lack
a certain level of specificity is unallowable.

The same issue also arose in connection with a 2010 audit of the proposed
budget for the Ocean Observatories Initiative which included $88 million
for contingencies. Auditors recommended the removal of the unallowable
contingency provisions from the proposed budgets, and advised NSF to imple­
ment policies that require the agency rather than the awardee to control the
contingency funds until a need for them is demonstrated. Without adequate
controls on the establishment and utilization of contingencies, the agency
cannot be certain that funds are not being used to hide poor project planning,
management or other deficiencies in administration.

OIG’s Assessment of the Agency’s Progress: During the past year, the
agency has participated in ongoing discussions with OIG regarding the resolu­
tion of audit findings and recommendations related to contingencies. Once
agreement is reached, NSF has indicated that it will update the Contingency
Policy and Procedures module of its Large Facilities Manual. In addition, the
agency states that it has engaged in a number of activities to strengthen its
oversight policies related to large facilities, including several business system
reviews of large infrastructure projects such as Cornell High Energy Synchro­
tron Source (CHESS) and Network for Earthquake Engineering Simulation
(NEES).




                                                                                     51

Management Activities


                        CHALLENGE: Managing Programs and Resources in
                        Times of Budget Austerity
                        Overview: Taxpayers expect government managers to be prudent custodians
                        of agency funds in both good times and bad, but expectations are even higher
                        when federal deficits are large and budgets are tight. In tough economic
                        times Federal agencies and programs must make every dollar count or risk
                        losing the public’s confidence. Responsible managers should re-evaluate their
                        operational activities in light of the current economic conditions and determine
                        where and how money might be saved. While government budgets are
                        developed long in advance, there are numerous discretionary expenditures in
                        every organization that occur on a weekly or monthly basis and present real
                        opportunities for savings.

                        Recently OIG has performed several reviews to examine expenditures such
                        as these and identify possible cost savings, as well as changes that might be
                        made to the way goods and services are purchased that could lead to efficien­
                        cies and reduced opportunities for fraud waste and abuse. For example, NSF
                        spends $500,000 per year to provide light refreshments to peer review panel­
                        ists, when a per diem payment for food is already included as part of their com­
                        pensation. The report recommended that NSF reconsider these expenditures
                        and if it decided to continue them, then centralize the purchasing process as
                        a safeguard against excessive charges and potential fraud. In another review,
                        OIG assessed NSF’s purchases of wireless devices and services, which in FY
                        2010 amounted to $660,000. Like the earlier review, the report cited the need
                        for a centralized procurement process which could result in economies of scale
                        when purchasing, and concluded that the agency should establish a policy to
                        guide the purchase, distribution and use of wireless technology.

                        Challenge for the Agency: There are many opportunities to conserve
                        money within a $7 billion dollar organization like NSF without impinging on
                        the agency’s core mission. The agency is therefore challenged to identify
                        opportunities to streamline processes and cut costs where it can in order to
                        send a clear message to its employees and stakeholders that strong, sound
                        management practices are being applied; reasonable ideas to reduce spending
                        are welcome and will be acted on; and at a time of hardship for so many, the
                        public’s continued financial support for science is not taken for granted.

                        OIG’s Assessment of the Agency’s Progress: The NSF Director dem­
                        onstrated support for efforts to curb wasteful spending at a recent all-hands
                        meeting when he asked staff for their ideas to save the agency money. How­
                        ever, NSF should follow up on his statement with a more aggressive outreach
                        initiative to enlist as much participation as possible. The agency responded to
                        the report on refreshment purchases by setting a cost ceiling of $25 per day for
                        each recipient a promise to exercise more oversight over the program, and a
                        commitment to analyze the costs and benefits of centralized purchasing. NSF
                        also agreed to develop a policy regarding wireless devices and services, and
                        to analyze the costs and benefits of a centralized purchasing process before
                        deciding whether or not to adopt the recommendation.




                 52

                                                            OIG Semiannual Report   September 2011


We have also identified two emerging challenges that warrant NSF‘s close
attention—transitioning to cloud computing and to the trusted internet connec­
tion and planning for the next NSF headquarters.


Transitioning to Cloud Computing and to the Trusted
Internet Connection
Cloud computing enables agencies to achieve efficiencies by utilizing shared
computing resources, such as servers, networks, storage, applications, and
services. The Federal Cloud Computing Strategy and the Cloud First Policy
state that Federal agencies are to consider safe, secure computing options
before making any new information technology investments.

In September 2011, NSF reported that it has established pilots to evaluate
email and instant messaging operations in a private cloud environment. As
NSF considers plans to transition information, applications, or data to the
cloud, it needs to ensure that security and internal control considerations are
addressed, and that cloud computing contracts provide adequate access to
information, and appropriate application maintenance for the protection of data
and intellectual property.

Regarding the Trusted Internet Connection, pursuant to OMB direction, agen­
cies are required to reduce and consolidate the number of external access
points, including Internet connections, and ensure those connections are routed
through an OMB-approved Trusted Internet Connection. NSF has migrated its
internet connections to a Trusted Internet Connection provider. NSF retains
primary responsibility for information technology security and should continue
to coordinate its security requirements with the Trusted Internet Connection
provider to ensure it utilizes strong information technology safeguards. It is
critical that NSF review and understand the risks and costs of cloud technology
as it considers moving data to the cloud. The OIG will be closely following
NSF’s progress in this endeavor.


Planning for the Next NSF Headquarters
NSF’s leases for headquarters facilities in Arlington, Virginia expire in Decem­
ber 2013. It appears that NSF is meeting the planning milestones that are
the necessary prerequisites for Congressional action. In its FY 2012 budget
submission, NSF requested that funds for its relocation remain available until
expended to allow it flexibility for planning and executing the most cost effec­
tive acquisition strategies. The report accompanying the Senate Commerce,
Justice, Science FY 2012 appropriations bill directed NSF to find savings from
future headquarters planning.

Planning for a new headquarters building during a time of budget austerity
presents a challenge for NSF. As the lease expiration approaches, the OIG will
pay close attention to NSF’s activities in this area.



                                                                                    53

Management Activities




                 54

About The National Science Foundation...                                                           About the Cover...

                                                                                                   Original artwork, acrylic on canvas, entitled “The Grizzly Bear” painted by OIG investigative
The National Science Foundation (NSF) is charged with supporting and strengthening all
                                                                                                   scientist, Scott Moore.
research discplines, and providing leadership across the broad and expanding frontiers of
science and engineering knowledge. It is governed by the National Science Board which sets
agency policies and provides oversight of its activities.


NSF invests approximately $7 billion per year in a portfolio of more than 35,000 research and
education projects in science and engineering, and is responsible for the establishment of
an information base for science and engineering appropriate for development of national and
international policy. Over time other responsibilities have been added including fostering and
supporting the development and use of computers and other scientific methods and
technologies; providing Antarctic research, facilities and logistic support; and addressing
issues of equal opportunity in science and engineering.


And The Office of the Inspector General...


NSF’s Office of the Inspector General promotes economy, efficiency, and effectiveness in
administering the Foundation’s programs; detects and prevents fraud, waste, and abuse within
the NSF or by individuals that recieve NSF funding; and identifies and helps to resolve cases of
misconduct in science. The OIG was established in 1989, in compliance with the Inspector
General Act of 1978, as amended. Because the Inspector General reports directly to the
National Science Board and Congress, the Office is organizationally independent from the
agency.
